<html>
<title> - SELF-DRIVING CARS: LEVELS OF AUTOMATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



                SELF-DRIVING CARS: LEVELS OF AUTOMATION

=======================================================================

                                 HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

                           Serial No. 115-19
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                                 __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-681 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a> 
                                  
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                                 7_____

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8

                               Witnesses

Jeff Klei, President, North America Automotive Divisions, 
  Continental AG.................................................     9
    Prepared statement...........................................    12
S. William Gouse, Diretor, Federal Programs Development, SAE 
  International..................................................    15
    Prepared statement...........................................    18
David S. Zuby, Executive Vice President and Chief Research 
  Officer, Insurance Institute for Highway Safety................    24
    Prepared statement...........................................    25
Kay Stepper, Ph.D., Vice President for Automated Driving and 
  Driver Assistance Systems, Robert Bosch LLC....................    34
    Prepared statement...........................................    36

                           Submitted Material

Report, ``A Roadmap to Safer Driving Through Advanced Driver 
  Assistance Systems,'' Motor & Equipment Manufacturers 
  Association, \1\ submitted by Mr. Costello
Letter of March 27, 2017, from Jacqueline S. Gillan, President, 
  and Catherine Chase, Vice President of Governmental Affairs, 
  Advocates for Highway & Auto Safety, to Mr. Latta and Ms. 
  Schakowsky, submitted by Mr. Costello..........................    70
Response to Request for Comment, DOT Docket No. NHTSA 092016 
  090090, Advocates for Highway & Auto Safety, December 2, 2016, 
  \2\ submitted by Mr. Costello
Statement of National Safety Council, March 28, 2017, submitted 
  by Mr. Costello................................................    74
Statement of John Bozzella, President and Chief Executive 
  Officer, Global Automakers, March 28, 2017, submitted by Mr. 
  Costello.......................................................    83
Response to Request for Comment, DOT Docket No. NHTSA 092016 
  090090, U.S. Chamber of Commerce, November 22, 2016, submitted 
  by Mr. Costello................................................    87

----------
\1\ The information has been retained in committee files and also is 
available at  http://docs.house.gov/meetings/IF/IF17/20170328/105790/
HHRG-115-IF17-20170328-SD011.pdf.
\2\ The information has been retained in committee files and also is 
available at  http://docs.house.gov/meetings/IF/IF17/20170328/105790/
HHRG-115-IF17-20170328-SD004.pdf.
Statement of American Car Rental Association, March 28, 2017, 
  submitted by Mr. Costello......................................    97
Statement of Dan Galves, Senior Vice President, Chief 
  Communications Officer, Mobileye, March 28, 2017, submitted by 
  Mr. Costello...................................................   100
Letter of March 27, 2017, from Marc Rotenberg, President, et al., 
  Electronic Privacy Information Center, to Mr. Latta and Ms. 
  Schakowsky, submitted by Mr. Costello..........................   105
Letter of March 28, 2017, from Honda North America, Inc., to Mr. 
  Latta and Ms. Schakowsky, submitted by Mr. Costello............   108

 
                SELF-DRIVING CARS: LEVELS OF AUTOMATION

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2322 Rayburn House Office Building, Hon. Robert E. Latta 
(chairman of the subcommittee) presiding.
    Members present: Representatives Latta, Harper, Lance, 
McKinley, Kinzinger, Bilirakis, Mullin, Walters, Costello, 
Walden (ex officio), Schakowsky, Clarke, Cardenas, Dingell, 
Matsui, Welch, Kennedy, Green, and Pallone (ex officio).
    Staff present: Ray Baum, Staff Director; Blair Ellis, Press 
Secretary/Digital Coordinator; Melissa Froelich, Counsel, 
Digital Commerce and Consumer Protection; Adam Fromm, Director 
of Outreach and Coalitions; Giulia Giannangeli, Legislative 
Clerk, Digital Commerce and Consumer Protection/Communications 
and Technology; Paul Nagle, Chief Counsel, Digital Commerce and 
Consumer Protection; Olivia Trusty, Professional Staff Member, 
Digital Commerce and Consumer Protection; Madeline Vey, Policy 
Coordinator, Digital Commerce and Consumer Protection; Hamlin 
Wade, Special Advisor for External Affairs; Michelle Ash, 
Minority Chief Counsel, Digital Commerce and Consumer 
Protection; Jeff Carroll, Minority Staff Director; Lisa 
Goldman, Minority Counsel; Caroline Paris-Behr, Minority Policy 
Analyst; Matt Schumacher, Minority Press Assistant; Andrew 
Souvall, Minority Director of Communications, Member Services, 
and Outreach.
    Mr. Latta. Well, good morning. I would like to welcome you 
all to our subcommittee meeting of the Digital Commerce and 
Consumer Protection this morning. I really appreciate our 
witnesses being here. We are going to have members coming in. 
There is a meeting going on downstairs, and so more folks will 
be coming in. We see a couple more coming in right now. But I 
really again appreciate you so for being here, and to get 
started I would like to recognize myself for 5 minutes for an 
opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Again, good morning. And last month, this subcommittee 
examined how automakers and other entities are testing self-
driving vehicles and preparing for the development of this 
lifesaving technology. While projections for the development of 
self-driving vehicles remains years out, advanced driver 
assistance systems that offer self semi-autonomous driving 
capabilities are entering the marketplace today.
    Advanced driver assistance systems are crash avoidance 
technologies that can protect drivers, reduce crashes, and 
enhance the convenience of driving. Forward collision warning, 
blind spot detection, and lane departure warnings are examples 
of advanced driver assistance systems. These systems help 
drivers make safer decisions on the road by providing real-time 
information about surrounding roadway activity. The driver can 
receive this information through audible tones, steering wheel 
vibrations, or small flashing lights on side mirrors alerting 
the driver of potential safety hazards on the road.
    Increasingly, advanced driver assistance systems now 
entering the market are capable of taking a more active role in 
the driving task. Innovative systems such as automatic 
emergency braking and lane departure prevention can temporarily 
take control over parts of the vehicle's critical safety 
functions such as braking or steering. This can occur by the 
system either applying the brakes without input from the driver 
or steering the vehicle back into marked lanes following 
unintended drifting.
    Automakers and equipment suppliers have announced 
additional innovative driver assistance systems that are 
currently in line for deployment. Traffic jam assist can take 
control of a vehicle's functions in low speed, stop and go 
traffic. Autonomous valet parking can park itself and retrieve 
itself when summoned by the owner. And highway autopilot with 
lane changing is being developed to change lanes and pass other 
vehicles without the input of the human driver.
    The deployment of the advanced driver assistance systems is 
demonstrating significant safety benefits across the country. 
Studies are showing that advanced driver assistance systems and 
crash avoidance technologies are reducing crashes, roadway 
injuries, and insurance claims. Advanced driver assistance 
systems are also an essential part in laying the groundwork for 
the deployment of fully self-driving vehicles.
    Through technological advances by manufacturers and 
equipment suppliers, basic driver assistance systems are taking 
on more advanced capabilities that assume greater control of 
the vehicle's critical safety functions throughout a driving 
trip. The progression of these technologies is incrementally 
removing the human driver from the driving task and paving the 
way to full autonomy.
    To provide consistency in the development of driver 
assistance safety technologies, standards-setting organization 
SAE International developed a classification system to define 
six different levels of driving automation. SAE levels of 
automation establish the general scope of the driver assistance 
system and the role of the human driver in vehicles taking on 
increasing autonomous driving capabilities.
    The levels span from a vehicle with no automation all the 
way to a vehicle with full automation or a fully self-driving 
vehicle. Last September, the National Highway Traffic Safety 
Administration adopted SAE's levels of automation for its own 
use in its Federal Automated Vehicles Policy.
    As we discuss the levels of vehicle automation today, I 
look forward to learning more about the capabilities of 
advanced driver assistance systems currently on the market and 
how these technologies are increasing vehicle safety and 
protecting America's motorists. I look forward to examining how 
these systems are informing the development of fully self-
driving vehicles and how the auto industry is working to make 
these systems available across all models and fleets.
    I also look forward to hearing from witnesses about how 
consumers are adopting these technologies and how they are 
helping to build consumers' confidence in automated driving 
systems. And with that I will end my opening statement.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning. Last month, this subcommittee examined how 
automakers and other entities are testing self-driving vehicles 
and preparing for the deployment of this life-saving 
technology. While projections for the deployment of self-
driving vehicles remain years out, advanced driver assistance 
systems that offer semiautonomous driving capabilities are 
entering the marketplace today.
    Advanced driver assistance systems are crash avoidance 
technologies that can protect drivers, reduce crashes, and 
enhance the convenience of driving. ``Forward Collision 
Warning,'' ``Blind Spot Detection,'' and ``Lane Departure 
Warning'' are examples of advanced driver assistance systems. 
These systems help drivers make safer decisions on the road by 
providing real-time information about surrounding roadway 
activity. The driver can receive this information through 
audible tones, steering wheel vibrations, or small flashing 
lights on side mirrors, alerting the driver to potential safety 
hazards on the road.
    Increasingly, advanced driver assistance systems now 
entering the market are capable of taking a more active role in 
the driving task. Innovative systems such as ``Automatic 
Emergency Braking'' and ``Lane Departure Prevention'' can 
temporarily take control over parts of the vehicle's critical 
safety functions such as braking or steering. This can occur by 
the system either applying the brakes without input from the 
driver or steering the vehicle back into marked lanes following 
unintended drifting.
    Automakers and equipment suppliers have announced 
additional innovative driver assistance systems that are 
currently in line for deployment. ``Traffic jam assist'' can 
take control of a vehicle's functions in low-speed, stop and go 
traffic. ``Autonomous valet parking'' can park itself and 
retrieve itself when summoned by the owner. And, ``highway 
autopilot with lane changing'' is being developed to change 
lanes and pass other vehicles without the input of a human 
driver.
    The deployment of advanced driver assistance systems is 
demonstrating significant safety benefits across the country. 
Studies are showing that advanced driver assistance systems and 
crash avoidance technologies are reducing crashes, roadway 
injuries, and insurance claims.
    Advanced driver assistance systems are also an essential 
part in laying the groundwork for the deployment of fully self-
driving vehicles. Through technological advancements by 
manufacturers and equipment suppliers, basic driver assistance 
systems are taking on more advanced capabilities that assume 
greater control of the vehicle's critical safety functions 
throughout a driving trip. The progression of these 
technologies is incrementally removing the human driver from 
the driving task and paving the way to full autonomy.
    To provide consistency in the development of driver 
assistance safety technologies, standards-setting organization, 
SAE (S-A-E) International, developed a classification system 
that defines six different levels of driving automation. SAE's 
levels of automation establish the general scope of the driver 
assistance system and the role of the human driver in vehicles 
taking on increasing autonomous driving capabilities. The 
levels span from a vehicle with no automation all the way to a 
vehicle with full automation or a fully self-driving vehicle. 
Last September, the National Highway Traffic Safety 
Administration adopted SAE's levels of automation for its own 
use in its Federal Automated Vehicles Policy.
    As we discuss the levels of vehicle automation today, I 
look forward to learning more about the capabilities of 
advanced driver assistance systems currently on the market and 
how these technologies are increasing vehicle safety and 
protecting America's motorists. I look forward to examining how 
these systems are informing the development of fully self-
driving vehicles and how the auto industry is working to make 
these systems available across all models and fleets. I also 
look forward to hearing from witnesses about how consumers are 
adopting these technologies and how they are helping to build 
consumers' confidence in automated driving systems.

    Mr. Latta. I would like to recognize for 5 minutes the 
gentlelady from Illinois, the ranking member, for 5 minutes. 
Good morning.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Good morning and thank you, Mr. Chairman 
and our witnesses. Today's hearing continues our subcommittee's 
series on autonomous vehicles. In last month's hearing, several 
of our witnesses referenced different levels of automation and 
today we will better define those levels and we will also ask 
about the effectiveness of existing safety technologies.
    Self-driving cars are part of a long-term vision to 
minimize accidents due to human error. Automated features are 
becoming increasingly common in our cars, but we still have a 
long way to go to reach full automation, Level 5, as SAE would 
call it. Technology must be sufficiently tested and ensure that 
we don't replace human error with system error. In addition, 
the Takata and Volkswagen scandals raised serious questions 
about how much we can trust industry to do the right thing on 
safety.
    Volkswagen ordered its supplier to write software to cheat 
on emissions testing. With software increasingly integral to 
our vehicles, proper oversight becomes that much more 
challenging. Ultimately, the success of autonomous features and 
self-driving cars relies on consumers trusting the technology. 
Trust must be earned. Once technologies are put in new vehicles 
it takes decades for technology to become widespread among all 
vehicles on the road.
    Just look at backup cameras. I worked to require backup 
cameras after I met and talked to parents who were devastated 
after their children were injured or killed in backover 
accidents. We passed that law in 2008. Parents and advocates 
came to DC regularly during the rulemaking process, and NHTSA 
finally established the standard in 2014. And backup cameras 
will now be required in all vehicles starting in model year 
2018, 10 years after the bill passed.
    It will still be years before the passenger vehicles 
without backup cameras cycle out of use. A car sold today may 
be on the road for another 2 decades. That is why it is 
critical we look not only at safety improvements in the long 
term, but also at which technologies can be effectively 
deployed right now to save lives.
    A lot of safety technologies are out there. However, some 
are more effective than others. Automatic braking for instance 
has proven very effective in reducing accidents. The evidence 
on lane departures systems is more mixed. Today we will hear 
from the suppliers that develop safety technologies. We will 
hear about the testing data that is essential to lawmakers as 
we consider what should be standard, and we will learn about 
classifying levels of automation, a useful framework as we 
think about how we move from today's cars to the self-driving 
cars of the future.
    It is a long road ahead, but as I have seen in my years on 
the subcommittee we have to push forward at every step in the 
process to make safety improvements a reality. I thank all of 
our witnesses for being here today, and I look forward to your 
testimony. And now I would like to yield the remaining time to 
Representative Matsui.
    Ms. Matsui. Thank you very much, Ranking Member Schakowsky. 
Innovation and AV vehicle technology is moving at an ever-
accelerating pace. We are seeing major investments from 
traditional auto manufacturers, suppliers like our witnesses 
from Bosch and Continental, and new entrants like technology 
companies and ride-sharing platforms. I believe we will make 
big leaps forward in this space sooner than any of us would 
have anticipated.
    Different companies are pursuing different levels of 
automation and we know that they do not need to move 
sequentially through each level of automation. Some companies 
are choosing to incorporate certain individual features of 
automation while others are investing in a more integrated 
Level 4 automation systems today.
    In my district in Sacramento we are looking aggressively to 
the future to lay the foundation for fully autonomous vehicles 
to be tested on our roads. We are rapidly moving towards a time 
when truly driverless cars will be on our roads and will 
coexist with human drivers and other vehicles with different 
levels of automation.
    I look forward to hearing more from our witnesses today and 
working with all of you to accelerate the testing and 
deployment of this exciting technology which holds so much 
promise for improving safety on our roads. I thank you and I 
yield back.
    Ms. Schakowsky. And I yield back.
    Mr. Latta. Thank you very much. The gentlelady yields back 
the balance of her time, and at this time the Chair recognizes 
the gentleman from Oregon, the chairman of the full committee, 
for 5 minutes for an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the chairman and I welcome our 
witnesses and look forward to your delivery of your testimony 
which I have read and appreciate.
    Following years of declining traffic fatalities, we have 
seen tragically a sharp rise in vehicle-related deaths over the 
past 2 years. According to early estimates, more than 40,000 
Americans, 40,000 people, lost their lives on our Nation's 
roads last year. That marks a 6 percent increase from 2015. And 
in my own State of Oregon, 2016 was the deadliest year on the 
roads in more than a decade, up 20 percent from the year 
before.
    These are sobering numbers. The development of self-driving 
cars could be a solution to this uptick in danger facing the 
driving public, the main question is how do we get there? Last 
month, this subcommittee examined how automakers and other 
entities are testing self-driving cars and that we are still 
years away from getting them into hands of consumers.
    But that has not stopped the automotive industry from 
laying the foundation for a complete vehicle autonomy. Today, 
many cars on the market, including one that my wife owns, are 
equipped with active safety features or semi-autonomous driving 
systems. It is pretty impressive to see them in action. These 
systems have the potential to keep a vehicle within its 
designated lane; accelerate to pass another vehicle; change 
lanes, brake, and park all without the input of a human driver.
    These advanced driver assistance systems or crash avoidance 
technologies represent the building blocks to a fully self-
driving car. Gradually allowing the vehicle to perform parts of 
the driving task absent human control means that vehicles are 
steadily learning how to operate alone and consumers are 
progressively becoming more familiar and more comfortable with 
automated driving systems. The advancement of driver assistance 
systems over the last decade, it is already demonstrating this 
progression as this technology is minimizing crashes, reducing 
injuries, and decreasing insurance claims.
    In recognition of the safety benefits provided by these 
systems, the National Highway Traffic Safety Administration has 
begun to formally incorporate many of these technologies in its 
5-Star safety ratings program. Today's hearing will look more 
closely at many of the advanced driver assistance systems and 
crash avoidance technologies that are on the road. Our 
witnesses will also help us to understand the different levels 
of driving automation, how these technologies are improving 
safety, and how the development of driver assistance systems 
and technologies is paving the way for fully self-driving cars.
     We often say the development of self-driving cars is a 
lifesaving endeavor. Following a devastating year on our 
Nation's roads this could not be any more true. I look forward 
to a thoughtful and engaging discussion on the levels of 
driving automation and how advanced driver assistance systems 
can lead us to the future of a full vehicle autonomy on our 
road systems.
    So thanks for the work you all are doing, thanks for 
sharing your comments with us. We want to make sure to advance 
this innovation and technology and save lives on our roads and 
in our communities.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Following years of declining traffic fatalities, there has 
been a sharp rise in vehicle-related deaths over the past 2 
years. According to early estimates, over 40,000 people lost 
their lives on our Nation's roads last year, marking a six 
percent increase from 2015. In Oregon, 2016 was the deadliest 
year on the roads in more than a decade, up 20 percent from the 
year before. These are sobering numbers.
    The development of self-driving cars could be a solution to 
this uptick in danger facing the driving public. The main 
question is: how do we get there?
    Last month, this subcommittee examined how automakers and 
other entities are testing self-driving cars and preparing this 
innovative safety technology for commercial deployment. Just 
about everyone concedes that fully self-driving cars are still 
years away from getting into the hands of consumers; but, that 
has not stopped the automotive industry from laying the 
foundation for complete vehicle autonomy.
    Today, many cars on the market are equipped with active 
safety features or semi-autonomous driving systems. These 
systems have the potential to keep a vehicle within its 
designated lane; accelerate to pass another vehicle; change 
lanes; brake; and park--all without the input of a human 
driver. These advanced driver -assistance systems or crash-
avoidance technologies represent the building blocks to a fully 
self-driving car.
    Gradually allowing the vehicle to perform parts of the 
driving task absent human control means that vehicles are 
steadily learning how to operate alone and consumers are 
progressively becoming more familiar and more comfortable with 
automated driving systems.
    The advancement of driver assistance systems over the last 
decade is already demonstrating this progression, as this 
technology is minimizing crashes, reducing injuries, and 
decreasing insurance claims. In recognition of the safety 
benefits provided by these systems, the National Highway 
Traffic Safety Administration has begun work to formally 
incorporate many of these technologies into its 5-Star Safety 
Ratings program.
    Today's hearing will look more closely at many of the 
advanced driver assistance systems and crash avoidance 
technologies on the road. Our witnesses will also help us to 
understand the different levels of driving automation; how 
these technologies are improving safety; and how the 
development of driver assistance systems and technologies is 
paving the way for fully self-driving cars.
    We often say that the development of self-driving cars is a 
life-saving endeavor. Following a devastating year on our 
Nation's roads, this could not be truer now. I look forward to 
a thoughtful and engaging discussion on the levels of driving 
automation and how advanced driver assistance systems can lead 
us to a future of full vehicle autonomy.

    Mr. Walden. With that Mr. Chairman, I don't know if anybody 
else on our side--I would yield to the gentleman from 
Mississippi for the remainder of my time.
    Mr. Harper. Thank you, Mr. Chairman. Thank you, Chairman 
Latta, for calling this hearing today to continue the 
subcommittee's efforts to explore the world of self-driving 
cars. As I have mentioned at our previous hearings, this topic 
is of particular interest to me because of the potential 
opportunities that self-driving cars would provide to Americans 
with disabilities, including those with intellectual 
disabilities.
    In the disability community lack of transportation is 
widely viewed as the top impediment to advancement and success 
in society. Self-driving cars could offer the disability 
community a new method of transportation to potentially remove 
this roadblock and provide them additional independence that 
would open the doors to access new job markets and 
opportunities to have an even more active role in our society, 
which benefits us all.
    I am looking forward to learning more about the 
capabilities of advanced driver assistance systems and crash 
avoidance technologies that are currently on the market and how 
these capabilities will advance the future of self-driving 
cars. And with that I yield back.
    Mr. Latta. Thank you. The gentleman yields back, and the 
Chair now recognizes for a 5-minute opening statement the 
gentleman from New Jersey, the ranking member of the full 
committee.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Latta. Today's hearing 
gives us a our first true opportunity to talk about what is 
happening now in automated technology. While learning about the 
potential technologies of the future is exciting, understanding 
that there are products currently available that are saving 
lives and reducing injuries is paramount.
    For the foreseeable future, human drivers are going to be 
driving vehicles on our roads and so efforts to prevent crashes 
or protect drivers and passengers in a crash are vital. For 
example, advances such as the addition of airbags and 
electronic stability control to our cars have saved thousands 
of lives. As I mentioned at this subcommittee's November 
hearing on self-driving cars, we see technologies in today's 
marketplace such as automatic braking that have enormous 
benefits.
    So today I urge all automakers to expedite the deployment 
of these braking systems into all new vehicles. According to 
the Highway Loss Data Institute it takes 25 years for a new 
feature to be on 95 percent of cars on our roads. Therefore, 
when we see something that works we need to get it on vehicles 
quickly and it needs to be made standard on all models and 
makes, not just the most expensive ones.
    Witnesses today will discuss other advances such as in 
lighting and blind spot detection that have promise, and I hope 
these technologies can help prevent injuries and fatalities. 
And as with automatic braking, I encourage rapid deployment of 
any new features that are proven to be beneficial. I also look 
forward to hearing about research into pedestrian and bicycle 
rider safety. As we learned at last week's hearing on smart 
communities, the number of people living in urban areas is 
rising and those areas have unique transportation challenges.
    I am also interested in hearing what new technologies can 
reduce injuries to rear seat passengers. While injuries to 
drivers are still the most common, often our most vulnerable 
passengers are in the back. Unfortunately, data on back seat 
passengers is still limited which hampers efforts to determine 
the effectiveness of features intended to protect them.
    Therefore, I encourage NHTSA and all other stakeholders to 
collect and share all relevant data on road safety. We need to 
be able to see transit opportunities for safety improvements 
for people riding in the back seats as well as drivers, front 
seat passengers, and others on the road. More information will 
also encourage innovation of new safety technologies.
    And finally, I will close by continuing my push for 
security by design and privacy by design where security and 
privacy are not afterthoughts but built into the products from 
day 1. I don't think anybody else wants my time, so I will 
yield back, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today's hearing gives us our first true opportunity to talk 
about what is happening now in automotive technology. While 
learning about the potential technologies of the future is 
exciting, understanding that there are products currently 
available that are saving lives and reducing injuries is 
paramount.
    For the foreseeable future, human drivers are going to be 
driving vehicles on our roads, and so efforts to prevent 
crashes or protect drivers and passengers in a crash are vital. 
For example, advances such as the addition of airbags and 
electronic stability control to our cars have saved thousands 
of lives.
    As I mentioned at this subcommittee's November hearing on 
self-driving cars, we see technologies in today's marketplace, 
such as automatic braking, that have enormous benefits. So 
today, I urge all automakers to expedite the deployment of 
these braking systems into all new vehicles.
    According to the Highway Loss Data Institute, it takes 25 
years for a new feature to be on 95 percent of cars on our 
roads. Therefore, when we see something that works, we need to 
get it on vehicles quickly and it needs to be made standard on 
all makes and models, not just the most expensive ones.
    Witnesses today will discuss other advances such as in 
lighting and blind-spot detection that have promise. I hope 
these technologies can help prevent injuries and fatalities. 
And as with automatic braking, I encourage rapid deployment of 
any new features that are proven to be beneficial.
    I also look forward to hearing about research into 
pedestrian and bicycle rider safety. As we learned at last 
week's hearing on smart communities, the number of people 
living in urban areas is rising, and those areas have unique 
transportation challenges. I am also interested in hearing what 
new technologies can reduce injuries to rear-seat passengers. 
While injuries to drivers are still the most common, often our 
most vulnerable passengers are in the back.
    Unfortunately, data on back-seat passengers is still 
limited, which hampers efforts to determine the effectiveness 
of features intended to protect them. Therefore, I encourage 
NHTSA, and all other stakeholders, to collect and share all 
relevant data on road safety. We need to be able to see trends 
and opportunities for safety improvements, for people riding in 
the back seats as well as drivers, front seat passengers, and 
others on the road. More information will also encourage 
innovation of new safety technologies.
    Finally, I will close by continuing my push for ``security 
by design'' and ``privacy by design,'' where security and 
privacy are not afterthoughts but built into the products from 
day one.

    Mr. Latta. Thank you. The gentleman yields back, and that 
will conclude our opening statements from our members. The 
Chair would like to remind Members that, pursuant to committee 
rules, all Members' opening statements will be made part of the 
record.
    At this time I also want to again thank our witnesses for 
being with us today. We really appreciate their taking the time 
to testify before the subcommittee. Today's witnesses will have 
the opportunity to give opening statements followed by a round 
of questions from our members.
    Our witness panel for today's hearing will include Mr. Jeff 
Klei, president of Continental Automotive Systems North America 
at Continental AG; Mr. Bill Gouse, director of Federal Programs 
at SAE International; Mr. David Zuby, executive vice president 
and chief research officer at Insurance Institute for Highway 
Safety; and Dr. Kay Stepper, vice president for Automated 
Driving and Driver Assistance Systems at Robert Bosch.
    We appreciate you all being here with us today and I would 
like to just mention that we have another subcommittee so we 
have members coming and out from both subcommittees today. But 
we look forward to your opening statements and, Mr. Klei, you 
are recognized for 5 minutes.

 STATEMENTS OF JEFF KLEI, PRESIDENT, NORTH AMERICA AUTOMOTIVE 
DIVISIONS, CONTINENTAL AG; S. WILLIAM GOUSE, DIRECTOR, FEDERAL 
    PROGRAMS DEVELOPMENT, SAE INTERNATIONAL; DAVID S. ZUBY, 
EXECUTIVE VICE PRESIDENT AND CHIEF RESEARCH OFFICER, INSURANCE 
  INSTITUTE FOR HIGHWAY SAFETY; AND KAY STEPPER, PH.D., VICE 
PRESIDENT FOR AUTOMATED DRIVING AND DRIVER ASSISTANCE SYSTEMS, 
                        ROBERT BOSCH LLC

                     STATEMENT OF JEFF KLEI

    Mr. Klei. Thank you very much and good morning, Chairman 
Latta, Ranking Member Schakowsky, and members of the 
Subcommittee on Digital Commerce and Consumer Protection. I 
thank the committee for the opportunity to testify today on 
behalf of Continental. My name is Jeff Klei and I am the 
president of Continental Automotive Systems in North America.
    Continental is a leading tier 1 supplier to develop safe, 
sustainable, and affordable mobility technology and solutions 
for our customers. In 2016, we generated more than $43 billion 
in sales within our automotive tire and specialty rubber 
groups. Continental employs more than 20,000 employees in the 
U.S. in more than 80 facilities located in 26 States and has 
more than 220,000 employees in 55 countries worldwide.
    In 2015, there were more than 35,000 lives lost in the U.S. 
due to traffic crashes. Projections for 2016 are the dismal 
increase to more than 40,000 fatalities, a level we haven't 
seen in a decade. More troubling is that on a global scale, 
roughly 1.2 million people die in roadway crashes and another 
50 million are injured each year. This is unacceptable and 
changing this is what motivates each and every employee at 
Continental.
    In the last 45 years, the U.S. has experienced a relatively 
declining trend in traffic fatalities due in large part to 
vehicle safety technology like seatbelts in the '70s, the 
introduction of anti-lock brake systems and airbags in the 
'80s, and finally electronic stability control in the '90s. As 
the auto industry moves towards more widespread implementation 
of advanced driver assistance systems, Continental projects 
these technologies will once again reverse the recent increase 
in fatalities.
    Continental and our dedicated employees are committed to 
developing safe and dynamic driving technologies that 
contribute to what we call our Vision Zero, a future with zero 
traffic fatalities, zero injuries, and ultimately zero 
accidents. Such a future can only be achieved with the help of 
innovative active and passive safety, advanced driver 
assistance systems, and automated driving technologies.
    With building block technologies like automatic emergency 
braking, adaptive cruise control, and rear backup assist that 
are available in vehicles today, we believe we can continue to 
pursue our Vision Zero and achieve higher levels of automated 
driving. When we ultimately achieve fully automated driving we 
believe that we can reduce the number of fatalities by more 
than 90 percent, the percentage of accidents caused by human 
error.
     The world and the behavior of drivers within it are ever-
changing and the vehicles must adapt to these changing trends. 
Our children seem to rely more on smart phones to stay 
connected with one another and living in a world of 
distractions has been commonplace. Automotive technology must 
develop accordingly.
    That is why Continental has put a great deal of effort into 
human-machine interface technology. We want the driver to be 
aware of their surroundings, be aware of what systems in the 
vehicle are doing, and be aware of when it is safe to 
relinquish control of the vehicle and when it is necessary to 
re-engage with the vehicle. In addition, we are heavily focused 
on securing the systems of the vehicle with cybersecurity 
enhancements as well as the redundancy of safety systems.
    Since 2011, we have continued a pursuit of developing and 
testing highly automated driving with next generation 
technologies like automated parking, Cruising Chauffeur, and a 
complete self-driving vehicle in combination with V2X 
technology. We were the first supplier in the U.S. to be 
awarded a testing license in the State of Nevada for automated 
vehicles and are currently testing our third generation 
automated vehicle on highways and roads throughout the country 
and around the world.
    But our continued efforts in this direction would benefit 
greatly from an investment in infrastructure that promotes 
vehicle to X communication, a dedicated spectrum communication 
band that can be utilized by current and future safety systems, 
and harmonization of safety laws that allows for the full real 
world testing of these technologies. The safe commercial 
deployment of potential lifesaving technology depends on the 
ability to extensively test on public roads under all 
conditions.
    Finally, we need an update of Federal motor vehicle safety 
standards to accommodate automated driving technology in a 
legal framework that supports a new system of mobility. The 
world of mobility has the capability of expanding to 
unimaginable independence and personal freedom while enhancing 
the safety of future generations. Continental stands at the 
ready alongside our industry colleagues to work with the 
committee and Congress in helping construct laws and 
regulations that foster innovation, enable mobility, and create 
a safer environment for our public.
    Thank you again, Chairman Latta, Ranking Member Schakowsky, 
members of the Subcommittee on Digital Commerce and Consumer 
Protection, and staff for the opportunity to testify at today's 
hearing.
    [The prepared statement of Mr. Klei follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much for your testimony 
today and the Chair recognizes Mr. Gouse for 5 minutes. Thanks 
again for being here.

                 STATEMENT OF S. WILLIAM GOUSE

    Mr. Gouse. Thank you, Chairman Latta, Ranking Member 
Schakowsky, and distinguished members of the subcommittee. SAE 
International thanks you for the opportunity to participate in 
this hearing, Self-Driving Cars: Levels of Automation. SAE 
International is a global society founded in 1905 with more 
than 140,000 engineers, scientists, related technical experts, 
and students in over a hundred countries in the aerospace, 
automotive, motorcycle, commercial, construction, agricultural, 
and specialized vehicle industries.
    Some notable members were aviation and automotive pioneers 
Orville Wright, Henry Ford, Amelia Earhart and Ransom Olds, 
motor sports legends such as Andy Granatelli and Dan Gurney, 
along with celebrities like Jay Leno. SAE members from 
Government, academia, and industry have testified at this 
subcommittee or at previous hearings in both chambers. All four 
of us on this panel today testifying are SAE members, as I see 
are many of my colleagues in the audience.
    My SAE experience began even before I was a freshman 
mechanical engineering student at Georgia Tech when my 
professor and SAE Student Chapter advisor Professor Williams 
signed me up as a student member and gave me this membership 
pin. My initial exposure to SAE was before college because my 
father was or actually still is an SAE member.
    SAE's core competencies are voluntary consensus standards 
development with nearly 30,000 experts across the globe 
contributing to a continually growing standards portfolio of 
over 10,000 active and 25,000 historical standards. These are 
used to increase safety, performance, quality and productivity 
of personal commercial transportation services while optimizing 
cost of products and product life cycles. This is an important 
point as this standard I will discuss in more detail in a 
moment is a product, as all standards are, of our members and 
other volunteers' efforts.
    In addition to the standards activities SAE holds dozen of 
conferences and symposia, including the Government/industry 
meeting held in January in conjunction with the Washington Auto 
Show Mobility Talks, and next week is the SAE World Congress in 
Detroit where my colleagues are also presenting and 
participating. These events plus other mutually beneficial 
Government/industry academic networking opportunities provide 
information for the formation of sound public policy positions 
and affiliated programs, products, and services that add value 
and encourage innovation.
    SAE standards are referenced in Government regulations, 
procurement documents, recommendations, and guidelines issued 
by the U.S. DOT, the U.S. EPA, Department of Energy, the NTSB, 
in regulations in our States, Commonwealths, inhabited 
territories, and local jurisdictions. In addition, SAE 
standards are used internationally, Canada, elsewhere in the 
Americas, overseas, and by the UNECE.
    SAE believes that incorporating voluntary consensus 
standards by reference as directed in the National Technology 
Transfer Advancement Act and the Office of Management and 
Budget Circular-A119 improves the efficiency and effectiveness 
of Government, whether a Federal, State, municipal body, or 
global harmonization activity, it saves time and money while 
increasing the efficacy of policy, legislation, and/or 
regulation. This is critical in order to respond to the policy 
or regulatory needs brought about by the rapid technology 
developments we are witnessing.
    These developments are progressing significantly faster, 
potentially orders of magnitude faster, than the regulatory 
process. In addition, the competitiveness of products and 
services increased in the global marketplace because of the 
higher quality, value, and customer confidence achieved through 
conformity with SAE standards. SAE has several standards 
published and many documents in development by a variety of 
car, motorcycle, pedestrian, and truck and bus committees 
relating to increasing the safety and efficiency of transport.
    While work continues to improve passive safety and 
crashworthiness of vehicles, the potential of implementing 
technological solutions to avoid or reduce the severity of 
crashes is a major focus of our SAE committee activities. 
Details of these efforts, standards and documents, and progress 
were submitted to the subcommittee in written testimony. In 
summary, they encompass active safety systems, driver 
assistance systems, cybersecurity, vehicle connectivity and 
communications, measurement and test devices, vehicle testing 
including safe on-road testing of automated driving systems, 
and specific to today's hearing, title SAE International 
Standard J3016: Taxonomy and Definitions for Terms Related to 
Automated Driving. I believe there is a flyer in front of all 
of you of this standard.
    This recommended practice originally published in 2014 and 
revised last September and referenced in the Federal Automated 
Vehicles Policy provides stakeholders including Federal, State, 
and local/municipal regulators, policy makers with a taxonomy 
describing the full range of six levels, SAE 0 through 5, of 
driving automation in on-road motor vehicles. These six levels 
span from no automation to full automation.
    I want to point out the key distinction. You see a dark 
green break in the handout here is between Level 2 where the 
human driver performs part of the dynamic driving task and 
Level 3 where the automated driving system performs the entire 
dynamic driving task under various conditions. The document, 
J3016, also contains functional definitions for advanced levels 
of driving automation and over a dozen related terms and 
definitions.
    Additional terms and definitions of active safety systems 
are contained in another standard, J3063 that was published in 
November of 2015. Importantly, what these standards do not 
provide are specifications or otherwise imposed requirements on 
driving automation systems or active safety systems, nor does 
it imply any particular order of market introduction or 
adoption. One vehicle might have multiple driving automation 
features such that it could operate at or different levels 
depending upon the features that are engaged or other 
consideration.
    Standardizing levels of driving automation and supporting 
terms serve several purposes particularly clarifying the role 
of the human driver, if any, during driving automation system 
engagement; providing a useful framework for driving automation 
specifications and technical requirements; providing clarity, 
consistency, and stability in communications on the topic of 
driving automation, as well as a useful shorthand that saves 
considerable effort and time. The document is designed to be 
useful to many beyond the engineering community, such as 
legislators, regulators, others in the legal profession, the 
general and trade media, and consumers and the public that are 
buying, riding in, or having freight delivered in a vehicle 
with some level of driver assistance or automation.
    The levels I will go through very briefly are 0, with no 
automation; 1, a driver assistance system to a specific mode 
such as keeping steering or accelerating/decelerating; Level 2, 
partial automation, one or more driver assistance systems, both 
steering and acceleration/deceleration using information about 
the driving environment. The human driver is still expected to 
perform all remaining aspects.
    That break down to automated driving systems that monitor 
the driving environment for Level 3 conditional automation, 
driving mode-specific performed by an automated driving system 
in all aspects of the dynamic driving task which define the 
standard, with the expectation that the human driver will 
respond appropriately with a request to intervene; 4, high 
automation, the driving mode-specific performance by an 
automated driving system of all aspects of the driving task 
even if a human driver does not respond appropriately to a 
request to intervene; and 5, full automation, full-time 
performance by an automated driving system of all aspects of 
the dynamic driving task under all roadway and environmental 
conditions that can be managed by a human driver.
    SAE has been and will continue to work with organizations 
and entities to reference SAE standards as we learn of their 
policy, regulatory, and legislative activities regarding both 
the public on-road testing, and the deployment of vehicles with 
driver assistance and automation systems. We are members of the 
Commonwealth of Pennsylvania----
    Mr. Latta. Pardon me, Mr. Gouse, if you could just wrap up, 
please.
    Mr. Gouse. All right. We are members of the Pennsylvania 
Department of Transportation Task Force; we work with the 
associated motor vehicle manufacturers and other groups. SAE 
levels of automation were adopted in the Declaration of 
Amsterdam and they are used as we spoke earlier of the U.S. DOT 
and the Federal Automated Vehicles Policy. Prior to this, the 
Government used separate terms and retired their classification 
so now we have this consistent usage.
    Driving assistance and automated driving systems have the 
potential to provide substantial benefits to all customers of 
road transport. And I thank you very much for this opportunity 
to provide this statement and answer any questions.
    [The prepared statement of Mr. Gouse follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much. And Mr. Zuby you are 
recognized for 5 minutes and thank you very much for being 
here.

                   STATEMENT OF DAVID S. ZUBY

    Mr. Zuby. Good morning, Chairman Latta, Ranking Member 
Schakowsky, and distinguished members of the subcommittee. On 
behalf of the Insurance Institute for Highway Safety, thank you 
for the opportunity to testify today on vehicle automation and 
crash avoidance technologies.
    The Insurance Institute for Highway Safety and its sister 
organization, the Highway Loss Data Institute, are nonprofit 
research institutes that identify ways to reduce deaths, 
injuries, and property damage on our highways. We are wholly 
supported by voluntary contributions from companies that sell 
automobile insurance in the United States and Canada.
    The United States has made enormous progress in reducing 
the toll from motor vehicle crashes. The death rate per billion 
vehicle miles traveled is one quarter of what it was in 1973 
when crash deaths peaked at 54,589. While changes in traffic 
laws and their enforcement combined with changes in road and 
vehicle designs all contributed to that decline, our research 
has shown that improvements in vehicle safety have been the 
largest contributor to road safety since the 1990s. We are 
convinced that further improvement in vehicle safety will 
remain an important strategy to make travel on U.S. roads even 
more safe in the future.
    Past improvements in vehicle safety largely focused on 
mitigating and preventing injuries when crashes occurred. The 
newest tool in the vehicle safety toolbox is automation of the 
vehicle controls that can prevent crashes in the first place 
and reduce the severity of those that aren't prevented. 
Electronic stability control which helps prevent sideways 
skidding and loss of control, reduces the risk of a fatal 
single vehicle crash by 49 percent and cuts the risk of a fatal 
multiple vehicle crash by 20 percent.
    More recently, front crash prevention systems which help 
drivers avoid front to rear crashes with warnings or automatic 
braking reduce these crashes by 26 percent for warnings by 
itself and by 50 percent for warnings combined with auto 
braking. Reductions for crashes with injuries are even larger.
    These are large reductions and count as wins for automation 
of vehicle control, but neither ESC nor front crash prevention 
systems prevent all the crashes they target. In addition, there 
are other new crash avoidance technologies like those that aim 
to prevent crashes precipitated by inadvertent lane drifts for 
which we have not yet found definitive benefits. There are 
reasons to be skeptical of the claims that driving automation 
will eliminate all crashes currently caused by human error. 
This is especially true in the near term technologies which 
will continue to involve human driver to a large extent.
    The design of these technologies and how drivers interact 
with them will be an important factor in their success. For 
example, we have found that on average across multiple 
implementations from various automakers, lane departure warning 
and other lane maintenance systems are used by only 50 percent 
of drivers whose cars have them. There is a wide variation in 
the use rate and that seems to be influenced by system design.
    As technology allows further automation of the driving 
task, we are concerned that some human drivers will fail to 
understand the limitations of these systems on their vehicles 
and crash because they are overly reliant on them. The design 
of driving automation systems will be key to helping drivers 
understand how systems work including the limitations of the 
technology. It will be important to continually monitor the 
effects of safety on new technologies entering the market.
    The studies mentioned above were only possible with close 
cooperation of a few automakers who helped us identify by 
vehicle identification number the specific vehicles that were 
equipped with a range of optional features. Unfortunately, 
there was no comprehensive database linking VINs to information 
about what features are present on a given vehicle. Government 
policies aimed at ensuring the availability of such highway 
safety data are important to enhance highway safety research on 
the effectiveness of these emerging technologies.
    Thank you again to the members of the subcommittee for 
inviting me to share what IIHS and HLDI have learned about the 
effectiveness of crash avoidance technologies. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Zuby follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much. And Dr. Stepper, you 
are recognized for 5 minutes for your opening remarks. Thank 
you very much for being here.

                    STATEMENT OF KAY STEPPER

    Dr. Stepper. Thank you Chairman Latta, Ranking Member 
Schakowsky, and members of the committee for the opportunity to 
testify before you today. My name is Kay Stepper, vice 
president with responsibility for the Driver Assistance and 
Automated Driving Systems for Bosch in the United States. At 
Bosch we are proud to be inventive for life, and I am honored 
to discuss an issue that is one of the pillars of our everyday 
work at Bosch: to save lives.
    Bosch has a long history in the United States. Robert Bosch 
himself established the first office in the United States in 
New York City in 1906. Now in 2017, Bosch companies operate 
more than 100 sites across the country. Bosch believes that 
automated driving is the future of mobility, and leading the 
way to safe, agile, and automated driving is our guiding 
principle. Worldwide, Bosch has more than 2,500 engineers and 
researchers working on the topics of automated driving and 
advanced driver assistance in our autonomous driving tests that 
is conducted in the United States, Germany, Japan, and 
Australia.
    Preliminary 2016 data from the National Safety Council 
projects that as many as 40,000 people died in motor vehicle 
crashes last year. The magnitude of the safety crisis is such 
that we must seek active means to increase deployment of 
technologies that can support drivers and reduce accidents and 
injury rates. Driver assistance systems such as automatic 
emergency braking and blind spot detection can assist in 
reducing the rising fatality and injury numbers that we are 
facing in the United States today.
    In the near term, it is critical that Government and 
industry continue to work together to help increase consumer 
access to and understanding of these advanced technologies. I 
commend the committee for calling this hearing and for focusing 
its attention on two topics that lie at the heart of this 
transformation in vehicle mobility: the levels of automation 
and the importance of the deployment of driver assistance 
systems as a foundation for automated driving.
    Unfortunately, these topics are often overlooked in the 
overall dialogue about automated driving. The truth is that 
many drivers and passengers are already experiencing the 
benefits of vehicle automation every single day. The active 
safety system electronic stability control is integrated into 
every new light-duty vehicle sold in the United States today. 
This revolutionary technology invented by Bosch engineer Dr. 
Anton van Zanten has saved thousands of lives. A 2014 report 
from NHTSA found that ESC saved close to 4,000 lives during the 
5-year period from 2008 to 2012.
    Automated driving will bring great benefits and pave the 
paths forward a new vision of personal and collective 
transportation. However, it will take time to achieve fully 
automated driving and it will be an evolutionary process, 
building up on the stepping stones of active safety, driver 
assistance, and crash avoidance system.
    In discussing the evolution toward automated driving I want 
to emphasis that Bosch strongly supports NHTSA's decision to 
adopt the SAE J3016 framework for levels of automation as part 
of the Federal Automated Vehicle Policy. This is a major step 
toward harmonizing and establishing a common set of definitions 
across the various stakeholders involved in these efforts. 
Bosch wishes to highlight automatic emergency braking as one 
clear example of how drivers are being introduced to automation 
in a gradual manner, and also of how automation intervention by 
the vehicle can provide the greatest benefit in terms of 
accident reduction.
    Suppliers play an important role in the innovation cycle 
and many suppliers such as Bosch conduct extensive testing in 
the lab on test tracks and on public roads. Suppliers presently 
face several obstacles in carrying out this testing on public 
roads, and we respectfully request that the committee consider 
extending the FAST Act exemption to include suppliers with 
active and established research and development programs in the 
United States.
    Bosch position on the need for improved consumer education 
is well known. We have urged NHTSA and the U.S. Department of 
Transportation for many years to include crash avoidance system 
as a key component of the vehicle 5-Star rating and to provide 
additional information to consumers through the Monroney label. 
Bosch believes that displaying crash avoidance systems as part 
of the official safety portion of the Monroney label and 
particular in the form of 5-Star rating, as the most effective 
means to help driver consumer awareness and eventually consumer 
demand for such technologies. Without the clear presence of 
crash avoidance and mitigation technologies on the most 
recognizable feature for consumers, the physical Monroney label 
as affixed to the vehicle, consumer education will continue to 
lag.
    The adaption of crash avoidance technologies into NCAP 
would be a very significant improvement and one which we 
believe will bring about immediate benefits as well as paving 
the path toward the attainment of automated driving in the 
future. Bosch encourages Congress and NHTSA to cooperate a path 
forward for the U.S. NCAP to become an effective means of 
encouraging the enhanced adoption of these lifesaving systems. 
Bosch truly believes that a 5-Star rating is the most effective 
means to translate the presence and performance of crash 
avoidance technologies into an easy-to-understand indicator for 
consumers.
    Thank you again for the opportunity to speak before the 
committee. I welcome any questions you may have.
    [The prepared statement of Dr. Stepper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much for your testimony and 
that will conclude our opening statements from our witnesses. 
Again we appreciate you being here, and I will begin the 
questions if I may.
    And if I could, Mr. Zuby, I would like to just follow up 
what you said what you said. A lot of the drivers out there 
driving the vehicles that have a lot of this technology are not 
using it. Is it because, you know, is it too difficult for them 
to understand maybe from reading the instructions in the manual 
or they just don't want to bother with doing it, or what are 
you finding out there why people aren't using that technology?
    Mr. Zuby. Right. So we think that one of the reasons that 
people aren't using lane departure warning technology is 
because they find it annoying. The way that technology works 
today is that it basically gives you a warning which may be an 
audible beeping or a vibrating of the steering wheel or 
vibrating of the seat when you transgress a lane line without 
signaling your intention to do so.
    So one way to think of the current technology is it is sort 
of a turn signal nanny rather than warning the driver about an 
imminent danger. And when we interview, or rather survey 
drivers with the technology that is one of the things that they 
tell us is the lane departure warning is very annoying. Systems 
that interact with the driver less frequently like front crash 
prevention are much more likely to be left turned on. In the 
studies that we have done we find that AEB and front crash 
warnings are left on in 90 percent or more of the vehicles, 
whereas we only see about 50 percent of lane departure systems 
left on.
    The other thing that our research is finding is that the 
design of the lane departure warning seems to have an 
influence. So people don't like the audible alerts, but when 
the system alerts them about crossing the lane line with a 
vibrating steering wheel or a vibrating seat they are much more 
likely to leave it on. And we also find that if the car takes 
some steering action in response to, you know, transgressing 
the line that too leads to higher use rates than the original 
systems which only warned the driver with an audible warning.
    Mr. Latta. Well, thank you very much.
    Mr. Klei, if I could ask you a little bit about especially 
on the cyber side, in your testimony you mentioned how driver 
assistance systems will require sensors to gather data about a 
vehicle's surrounding environment in order to adequately assist 
that driver. How is Continental thinking about the privacy and 
security of the advanced driver assistance systems and crash 
avoidance systems, and what is Continental doing to secure 
those systems against cyber threats?
    Mr. Klei. Thanks for the question, Chairman Latta, and it 
is a great question and it is something that at Continental we 
have been thinking about for many years. Cybersecurity is not 
new with automated driving or the advanced driver assistance 
systems. It has been a discussion point and a key development 
area for us for many, many years ever since, really, 
electronics started to come into the car.
    I would say the connection to the cloud, the connection 
with all the 4G connections that are now available open up a 
new opportunity for those cybersecurity threats. We have 
developed an entire competency center in our company that is 
used extensively for cybersecurity and we are trying to install 
all the different protections that we can from known 
cybersecurity attacks.
    But many people say should we have a cybersecurity 
specification it is dynamic. Every day there is new threats. 
Every day there is new opportunities that emerge. So we have to 
work together with our OEM partners, suppliers, and the 
Government to look at ways we can work together to identify and 
eliminate those cybersecurity attacks. But we clearly have a 
competency center, we think very much about it, and it is 
clearly a challenge as we bring many of these technologies into 
market. But it is not new. It has been thought about and 
developed for many, many years.
    Mr. Latta. Well, if I could also, Dr. Stepper, would you 
like to comment on that on what Bosch is doing in this area on 
the cyber side?
    Dr. Stepper. Yes. Thank you, Chairman, for the question. 
Bosch has been very active on this topic for cybersecurity 
protection. We believe very much in a layered approach, layered 
in a sense that there is hardware layer, software layers, and 
architectural layers that need to be introduced. We actually 
established a center of competency for cybersecurity back in 
2010, and we already established additional units within Bosch 
that work specifically on software solution to help our OEM 
partners to protect against cybersecurity threats.
    Mr. Latta. Well, thank you very much.
    And also, Dr. Klei, could I ask a real quick question 
because my time is running out here, commenting on SAE levels 
of automation and why they are important to the industry 
standard of fully self-driving cars.
    Mr. Klei. Certainly we very much support the adoption of 
the SAE standards. We think a standard that clearly defines 
what the levels of automation are, are very useful as we start 
to develop and deploy these technologies. The consumers are 
often confused by the various naming and the various levels. 
And I think we as an industry have a lot of work to do to 
improve that communication and education of the consumers.
    Suppliers have a role in this. The OEMs have probably the 
largest role because they are the ultimate touch point with 
consumers. And then of course any assistance from the 
Government and other outside agencies are very, very 
beneficial. So we very much support it and we think everyone 
has a role in educating so that the naming of these 
technologies really describe what it can do and people don't 
get confused.
    Mr. Latta. Well, thank you very much. And my time is 
expired and I will now recognize the gentlelady from Illinois, 
the ranking member of the subcommittee, for 5 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Dr. Stepper, your testimony mentions rear automatic 
emergency braking systems and I am wondering if you could 
discuss how that could help prevent backover accidents.
    Dr. Stepper. Yes. Thank you, Ranking Member Schakowsky, for 
the question. The rear automated emergency braking is a 
relatively recent addition to the automatic emergency brake 
suite of functions that we have. We already have a mandate in 
the United States starting in 2018 for backover legislation to 
have a rearview camera installed in each and every vehicle.
    So we have already a basis of the technology in there, and 
we also see that especially with pedestrian incidents that we 
see in rear backover situations this technology could really 
help not only to protect from material damage but saves lives 
and prevent injuries.
    Ms. Schakowsky. And is this feature available today in any 
makes or models?
    Dr. Stepper. It is available today but still in very, very 
small numbers. There are a few select vehicles in the United 
States today sold with this. The installation rate overall is 
less than five percent, in contrast to forward-looking 
automatic emergency braking where you look more between a 20 to 
25 percent installation rate today already.
    Ms. Schakowsky. You also mentioned pedestrian automatic 
emergency braking. Is that any different from AEB when another 
car is in front of the vehicle?
    Dr. Stepper. It is another progression and another step in 
the full AEB suite. The automatic emergency braking for 
vehicles was invented first and brought to market. Pedestrian 
automatic emergency braking has a little bit of a different 
requirement in the sense that you need to have a very wide 
field of view to recognize crossing pedestrians and not only at 
higher speeds, but especially in urban scenarios at lower 
speeds. So and therefore it is different in the sense that the 
requirements on the technology are different and it is already 
part of Euro NCAP in the European Union as a requirement moving 
forward.
    Ms. Schakowsky. Thank you. Mr. Zuby, I wonder if you have 
looked into these technologies and if you have any comments on 
that.
    Mr. Zuby. Yes. We have been looking into these technologies 
and we have worked up a series of tests that we intend to start 
using to promote the idea of reversing automatic braking. We 
think that that may be an additional thing that is needed to 
address backover crashes because the experiments that have been 
run using cameras show that while they definitely improve the 
situation and help drivers avoid running into things that are 
behind their vehicle that they don't expect to be behind their 
vehicle, they are not a hundred percent effective because the 
driver needs to be looking at the camera at the same time that 
the person or object behind them is in the view of the camera.
    So automatic braking, I think, can augment the benefits 
that we get from the technology looking rearward in the camera 
during reversing maneuvers. We are also looking at pedestrian--
by the way, my guys have identified, I think, 14 models of cars 
sold in the current model year that are equipped with reversing 
AEB. We are also looking at pedestrian detection. And it is a 
slightly more difficult problem for the technology to solve 
because of the field-of-view issue and the fact that 
pedestrians can change direction and change their movement very 
quickly.
    Ms. Schakowsky. Because I have been so involved in the 
issue of the cameras and you say it is not a hundred percent, 
have you estimated how effective it is or how many times it 
does fail to prevent an accident?
    Mr. Zuby. Well, so in experiments we find that it reduces 
the likelihood that you are going to back over something that 
is in your path by about two thirds.
    Ms. Schakowsky. OK. So you have done years of research on 
AEB systems. Can you give us more details on how these systems 
work and why they save lives?
    Mr. Zuby. So the current AEB systems mainly prevent front-
to-rear crashes. They are effective at preventing those kinds 
of crashes, and even when they don't prevent the crash they 
reduce the risk of injury. Front-to-rear crashes don't result 
in a lot of fatalities. It is in the neighborhood of about 800, 
900 people a year out of the nearly 40,000 die in front-to-rear 
crashes. So even if a technology were to prevent all of the 
rear crashes, it would have a small dent on fatalities.
    But the sensors that are needed for AEB are sensors that 
will be needed to address other types of crashes, you know, 
leverage the technology to address other kinds of crashes that 
do account for more fatalities.
    Ms. Schakowsky. Thank you. I see I am out of time, I yield 
back. Thank you.
    Mr. Latta. Well, thank you very much. The gentlelady yields 
back, and the Chair now recognizes the gentleman from Illinois 
for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you all for 
being here and taking some time with us today. It is an 
important hearing on the future of self-driving cars and 
specifically the opportunity to learn more about the advanced 
driver assistance systems that is saving lives today and it is 
also paving the way to fully autonomous vehicles.
    Dr. Stepper, in your testimony you highlighted the 
importance of the SAE framework for the various stakeholders in 
autonomous vehicles and the lack of common language for 
advanced driver assistance systems. How has this lack of a 
voluntary standard impacted Bosch's ability to bring technology 
to the market?
    Dr. Stepper. Thank you for the question, Congressman. Very 
clearly, the lack of clear language and common taxonomy has 
resulted in some confusion at the consumer side: What is really 
my car doing with the different technologies that we have? So 
as Mr. Gouse has very graphically illustrated in his chart, 
there is well defined levels of 0 to 5 for automation, and 
coupled with a very active consumer education campaign we can 
really educate consumers what they can expect.
    Is it just a warning that my vehicle will provide or is it 
actually an actual intervention like an active braking 
situation or can I take my hands and my feet off the controls 
and the car will drive by itself? And what we have found 
clearly is that the lack of such common language really has led 
to confusion on the consumer end, and we really commend the 
National Safety Council together with the University of Iowa 
joining the Road to Zero campaign and actually establishing a 
Web site that is called mycardoeswhat.org to educate consumers 
of what is actually in their vehicles today because it can be 
so confusing.
    Mr. Kinzinger. We should do a my-congressman-does-what. Mr. 
Gouse, what are the challenges to adopting a voluntary 
consensus standard and what efforts are underway to provide a 
common language for advanced driver assistance systems?
    Mr. Gouse. Thank you, Congressman, for the question. It is 
an emotional question internally, because it is very difficult 
to raise awareness that our documents even exist to a variety 
of stakeholders that don't traditionally know that they even 
use this. We were working with the American Association of 
Motor Vehicle Administrators and they didn't even know that the 
license plate geometry was our standard. So that was our 
beginning point. And we told them we had this document in works 
at the same time NHTSA had their levels of automation in works, 
and with differing vocabulary and differing levels it confused 
the issue a lot. Fortunately, NHTSA decided to adopt the SAE 
language, and then AAMVA and through the States that 
proliferated. That is one example.
    The same thing is happening all over the world. For the 
driver assistance systems, same thing, we have a standard that 
is called Active Safety Systems Terms and Definitions. It is a 
fairly easy read. It is not really riveting like a novel, but 
it is a fairly easy read and we are trying to get that language 
adopted too. And as you hear today, we even use different terms 
ourselves and I agree it is confusing.
    Mr. Kinzinger. Let me add on. Are there any policies, 
developing policies that you are concerned with as you are 
seeing them right now?
    Mr. Gouse. The States that are unaware or choosing not to 
use a common terminology and the common taxonomy, I believe, 
will result in a patchwork of very difficult to understand and 
operate in environments. This is happening now at the testing 
level where they are passing regulations permitting testing of 
various levels of automation in nonsalable vehicles. So it is a 
concern.
    Mr. Kinzinger. And then we will go with Dr. Stepper on this 
one. When you look at educating the public about the benefits 
and the limitations of various systems, especially for systems 
like automatic emergency braking that provides a lot of value 
to the customer, but the customer, the consumer may not be 
aware that the technology is assisting the driver. Mr. Zuby 
mentioned that lane maintenance systems were only turned on in 
51 percent of the vehicles that IHS observed. How do your 
companies, how does your company work with the consumers to 
build confidence in the technology so it is being fully 
utilized?
    Dr. Stepper. So thank you for the question, Congressman. 
Clearly we work with activities like the Road to Zero and the 
activities from the National Safety Council as well as the 
University of Iowa. We work very closely with our OEM 
customers, for example, in joined co-marketing campaigns to 
educate dealers, because at the end of the day new vehicles are 
being bought from dealerships and consumers are being consulted 
by dealership personnel and that is really your first touch 
point of a new vehicle purchase and understanding of what this 
vehicle really has on board in terms of technology.
    So we work very actively with several OEM customers on this 
topic to make tours to make joint marketing campaigns around 
the country to educate dealerships on this topic so they can 
explain what is installed on the vehicle. Again I want to 
emphasize an additional mention of these crash avoidance 
technologies. In a 5-Star rating, incorporating crash avoidance 
technologies could also very much help in that regard because 
now the dealership personnel would have the Monroney label 
right in front of them to help them guide the consumer through 
the purchase.
    Mr. Kinzinger. Thank you. And I have some more questions; I 
will submit them for the record. Mr. Chairman, I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back, 
and the Chair now recognizes the gentlelady from Michigan for 5 
minutes.
    Mrs. Dingell. Thank you for the recognition, Mr. Chairman, 
and for your continued interest in the automated vehicles. As 
you all know it is a subject that I really care a great deal 
about. As I stated in the last hearing on this issue, I believe 
it is critical that the Congress, the administration, the 
industry, and safety advocates all come together on a common 
framework for automated vehicles. Too much is at stake and we 
have got to get it right.
    Legislation will be needed to facilitate the deployment of 
higher level automated vehicles, and I support raising the 
statutory exemption caps as an interim solution while directing 
NHTSA to amend existing vehicle safety standards as they relate 
to human operated controls. And I think a lot of people don't 
understand what some of the regulations are because they have 
been there for so long.
    Great strides in vehicle automation are being made. Proud 
of it that a lot of it is in my district in developing safety 
technologies that have the potential to reduce roadway deaths, 
and I believe helping them get to market could have a 
significant impact on public safety, and I have got some 
questions to help the committee examine these issues.
    My first questions are for Mr. Gouse of SAE, and if you 
could just do yes or no, please. Is it correct that SAE Levels 
0 to 2 contemplate that a human driver will perform all or some 
aspects of what is known as the dynamic driving task?
    Mr. Gouse. Yes.
    Mrs. Dingell. Is it correct that SAE Level 3 contemplates 
that a human driver must be in the loop and prepared to respond 
to a request by the vehicle to take over the dynamic driving 
task?
    Mr. Gouse. Yes.
    Mrs. Dingell. Now is it true that an SAE Level 4 vehicle is 
one that is capable of performing all aspects of the dynamic 
driving task in a given situation also known as the operational 
design domain?
    Mr. Gouse. Yes.
    Mrs. Dingell. And a Level 5 vehicle can handle all aspects 
of driving under all conditions?
    Mr. Gouse. Yes.
    Mrs. Dingell. Thank you. Now these questions are for all 
four witnesses. Is it true that companies like FCA, Ford, and 
GM in Michigan are developing and currently deploying SAE 
Levels 1 and 2 systems? Anyone can say yes or no.
    [Chorus of yeses.]
    Mrs. Dingell. Thank you. Is it true that these traditional 
automakers and others like Waymo are developing Level 4 systems 
at the same time?
    Mr. Klei. Yes.
    Mrs. Dingell. In other words, these companies aren't 
necessarily pursuing a sequential progression through the SAE 
Levels to full vehicle automation; is that correct?
    Mr. Klei. No.
    Mrs. Dingell. That is not correct. So you think they are 
going 1, 2, 3, 4 or are they going from 2 to 4?
    Dr. Stepper. If I may jump on this one, Congresswoman 
Dingell, it depends on the automaker. Some absolutely proceed 
along the path, Level 0, 1, 2, 3, 4, and 5; some other ones may 
skip Level 3. There is no common answer. But some of them that 
you mentioned are indeed following exactly along the path of 
what Mr. Gouse has presented.
    Mrs. Dingell. And others are skipping. Is it true that a 
number of existing NHTSA safety standards require human 
operation of vehicle controls that may not be necessary if 
there is no human driver, such in Level 4 or 5?
    Mr. Zuby. Yes.
    Mr. Gouse. Yes.
    Mrs. Dingell. Do you all have good--I don't know if I am--
my staff wants me to keep moving. But I think people don't know 
that a NHTSA requirement requires a foot on a brake and it is 
not necessary at 4 or 5, so----
    Dr. Stepper. That is correct.
    Mrs. Dingell. Thank you. Should NHTSA amend existing safety 
standards to clarify how they apply to higher level automated 
vehicles without drivers?
    [Chorus of yeses.]
    Mrs. Dingell. Do all of you agree on that?
    Mr. Gouse. Yes.
    Mrs. Dingell. Well, I am running out of time, so I am going 
to--I have lots of questions but--and, for the record, I may 
submit some more, Mr. Chairman. But I want to commend the 
chairman for holding this important hearing to help educate 
members on the issues because it is really important that we 
get it right. Automated vehicles are going to be developed and 
they are going to be developed internationally if we don't take 
the lead on making sure we do it, develop them here and that 
these technologies are developed in the United States of 
America. So I look forward to working with my colleagues on 
both sides of the aisle in a bipartisan manner to achieve this 
goal.
    Thank you all for being here today. Thank you, Mr. 
Chairman. I yield back my 15 seconds.
    Mr. Latta. Thank you very much. The gentlelady yields back 
the balance of her time and the Chair now recognizes for 5 
minutes the gentleman from Mississippi, the vice chairman of 
the subcommittee.
    Mr. Harper. Thank you, Mr. Chairman. And again thanks to 
each of you. This is, you know, it is just mind boggling the 
possibilities and we have just barely scratched the surface. 
And, you know, I can't imagine what it will be like we come 
back in 5 years and just discuss what we are doing next. I mean 
this is really remarkable. So thanks for the involvement that 
each of you and each of your companies have.
    And Mr. Klei, thank you very much. We are excited about the 
presence of the new Continental Tires facility that will be 
opening in Mississippi. I think that was a great decision. We 
are honored to have a part of your company that will be there, 
and I wanted to talk to you for just a minute.
    Obviously, the intellectual disabilities issue is 
important. My wife and I have a son who is 27 years old who has 
Fragile X syndrome. He graduated from a special program at 
Mississippi State University. He works Monday through Friday. 
My wife has to drive him every day and drop him off and pick 
him up. So it is something for many families, this is an 
important issue. So are advanced driver assistance systems at a 
point where they are able to provide new transportation 
opportunities to the disabled community?
     Mr. Klei. Certainly is it an important topic, and thank 
you for the question, Congressman. It is something that I 
think, as an industry we are working very hard, and it is not 
just for the automated driving technologies in general. We are 
trying to make mobility more available and safer for all, and I 
think the advancements in automated driving are clearly going 
to move that forward.
    Are they ready today to take over all driving tasks for 
someone that can't drive today? Not necessarily; over time, 
absolutely. We believe when we get to Level 4 and Level 5, 
absolutely it is going to provide mobility for many people that 
today don't have that mobility. The Waymo development, their 
first example that they showed was someone that was blind. And 
that is a huge statement for the potential mobility promise for 
the elderly, the blind, and every disabled person in the United 
States will have mobility, and it is an important step for 
them, but also for society.
    Mr. Harper. Well, we are excited that Continental is taking 
that into consideration in the development of this.
    Dr. Stepper, will you also comment on that as well?
    Dr. Stepper. Yes. Thank you for the question, Congressman. 
We are actually working very, very intensively on the aspect of 
human factors because as we have learned before, on some of the 
levels of automation the interaction of the human being is 
still very, very important and part of the requirement for both 
SAE all the way to Level 3 as we heard earlier.
    So in human factors we have done a number of research for 
user, human-machine interaction perspective, but we have also 
worked in augmented reality experiences. And that is a topic I 
just want to make the comment that we are actually going to 
show a demonstration of augmented reality for automated 
driving. It is an upcoming experience here on the Hill as the 
event that is CES on the Hill on April 5th, where all of you of 
course are invited to experience some of the human factors 
aspect and how important it is as part of the automated driving 
equation.
    Mr. Harper. We are expecting self-driving cars to be at 
Level 5 tomorrow, when most drivers are not Level 5 drivers. 
Mr. Klei, what do you think Congress should do to facilitate 
this development in deployment of advanced driver assistance 
systems at a point where we can assist and not be, let's say, a 
roadblock to that development?
    Mr. Klei. Thank you, Congressman, a very important question 
and one that I think we look at a couple different areas. One 
is the Federal Automated Vehicles Policy that was issued last 
September. While we commend the NHTSA organization and all the 
work that they did we think there is a lot more to do.
    First of all, when it comes to that policy it really more 
talks about deployment rather than development, and we think 
development is an important part of bringing these technologies 
to market safely and with real world testing.And only through 
an improvement in that policy can we get there. For example, 
the policy requires for every software change or every change 
that we make we have to submit a new exemption. The time to 
develop those and the time to get the approvals will 
significantly delay the implementation of this.
    I think the other thing is the model State policy. To have 
a patchwork of State regulations is clearly hindering our 
ability to test and develop and ultimately commercially deploy 
these technologies. So there is two examples. I could go on and 
on about other examples, but clearly there is opportunity to 
work closer together between ourselves as suppliers, the OEMs, 
and the Government to really bring these forward in a safe and 
effective way.
    Mr. Harper. Thanks to each of you. I yield back.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back, and the Chair now recognizes the gentlelady from 
California for 5 minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman, and thank 
you very much for the witnesses for being here today. As many 
of you know, the FAST Act mandated that self-driving cars could 
be introduced into commerce solely for the purposes of testing, 
but only by companies that had at the time of the law's 
enactment already manufactured and distributed motor vehicles 
in the United States.
    In addition, legislation has been proposed in some States 
that would allow only traditional car manufacturers to test and 
deploy AVs. Some have even speculated that NHTSA's deployment 
exemptions also could be limited to car manufacturers that 
already build and distribute motor vehicles in the United 
States, and I believe we started down this path already.
    But Dr. Stepper and Mr. Klei, I know that you have been 
working with AV components that could benefit from direct 
testing. What are the barriers to your companies doing testing 
on your own?
    Mr. Klei. From the Continental side certainly we have 
talked a little bit about some of those barriers with the 
ability to test without concern for all the different State 
regulations. I mean, since the Federal Automated Vehicles 
Policy came out there has been 48 different bills in 20 States 
that complicate our development of these technologies. We 
believe that as suppliers we also need to have the ability to 
test and develop these. It can't be just the OEMs that in fact 
do certify vehicles for FMVSS. We as suppliers don't certify 
vehicles. We develop technologies, we work with our OEM 
partners to bring them in safely, but we need the ability to 
develop and test those ourselves, not as a certifying FMVSS 
body but as one that really looks to develop those.
    Ms. Matsui. Certainly. Dr. Stepper?
    Dr. Stepper. Congresswoman Matsui, thank you for the 
question. As I mentioned earlier in my testimony, suppliers 
play a very important role in the innovation cycle. And as a 
matter of fact, often innovations like electronic stability 
control, the required sensors like radars, video cameras, 
ultrasonic sensors, and many of the other active systems, for 
example, the braking and the steering in the vehicle, is 
actually coming from the suppliers.
    So we do our utmost of course to develop and test and 
verify these components and systems in the lab with artificial 
methods like modeling and simulation, but there comes the point 
where we suppliers need to take these technologies on the road 
to ensure that they are fully verified and validated before 
they ever go into consumers' hands. So it is really limiting 
our ability to test on public roads.
    And we understand very clearly that the expansion of the 
exemption must be handled very carefully and cautiously, but we 
are very happy to engage actively with the committee on this 
point.
    Ms. Matsui. Thank you. I understand that different 
companies are pursuing different strategies in terms of the 
level of automation in the vehicles they plan to deploy. And as 
we have been reminded, often it is human drivers that can cause 
and contribute to accidents with automated vehicles.
    Mr. Zuby, are there particular concerns we should consider 
during a transition when vehicles from all different levels of 
automation will be on the roads?
    Mr. Zuby. Yes. I think we are already seeing in studying 
work that Waymo are doing and other automakers that even when 
the automated cars are driving at a very high level of 
competency they often are involved in crashes caused by human 
drivers. And so I think as the testing develop it is important 
to make sure that there are safeguards that the testing be done 
in safe ways and not endanger other people and the public, but 
it will be absolutely necessary to test these things in the 
real situation because that is where they need to work.
    Ms. Matsui. Right. As companies continue to expand testing 
of autonomous vehicles, they are all gathering an enormous 
amount of data about these vehicles. Mr. Gouse, are there any 
efforts in place to standardize the data that is being 
collected so that we can learn best practices regardless of 
where the autonomous vehicles is being tested?
    Mr. Gouse. Ma'am, there are very early efforts going on. 
You have to understand that it is a very proprietary 
environment. While these gentlemen are cordial here, they 
probably want to kill each other sometime over a product.
    Ms. Matsui. I hope not.
    Mr. Gouse. No, no, no. So there are discussions going 
underway with the associations that they belong to on this and 
how to collect the data and use it.
    Ms. Matsui. So we are at the very early stages of that 
right now but it would be very helpful to have the data. So 
anyway I will yield back my remaining time.
    Mr. Latta. Thank you very much. The gentlelady yields back, 
and the Chair now recognizes the gentleman from West Virginia 
for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. And last month when 
we met I said then that I think this is, this whole process is 
probably inevitable. And as one of just two licensed engineers 
in Congress, I am intrigued with the problem-solving 
possibilities that we have with this. I am fascinated with the 
developments that have occurred so far in lane movement as you 
referred to it or the braking.
    But I am a huge skeptic of driverless cars and I am not 
buying this one iota yet. I will go with all the others. I can 
see the possibilities of that. But at the last meeting I raised 
some questions about IV&V and everyone on the panel had no idea 
what we were talking about, so I ask you because you are four 
different people. Are you using IV&V for confirmation of the 
various steps that we are going through so far?
    I am seeing a no all the way around again. If we send a 
ship to Mars or when we send a satellite into space we run 
through all the steps to test it for individual verification 
and validation and make sure that it is going to work because 
we don't want to rely on competitive peer pressure without 
having some third party validate what we are doing. And that is 
what we are looking for, I am going to looking for is third 
party, because I know companies are going to be under a lot of 
pressure to skip steps 2 and 3 and go right to 4 if possible or 
skip 1 and go to 3, whatever that might be they are going to 
move that because of competitive pressures.
    We talked a little bit when one of the things since that 
time--because I am fascinated with this. Again, it is the 
engineering. I know this is inevitable. How can we work with 
this thing to do everything but driverless? So when I have 
asked the question when I have been back in my district, it is 
wherever it is we are excited. In fact we are going to have a 
summit meeting about this, about driverless cars.
    But when I have raised the question, Would you put your 6-
year-old granddaughter in the car and let her go 40 miles to 
meet her brother, perhaps, every one of them says no. Now, I 
know it is going to be evolutionary. They will develop more 
confidence with it. But when I was hearing about if something 
goes wrong they are going to transfer operation back over to 
the person in the car, what happens if it is indeed someone 
that is intellectually impaired or is inebriated and we have 
allowed them to get in that car to be able to get home, and 
then they are turning the transportation over to them when they 
are doing 60 miles an hour, and they say, ``OK, driver, it is 
your car''?
    I have a series of questions about it. I am going to remain 
a skeptic on this. I want to follow the money. I don't 
understand other than insurance companies who is really going 
to benefit for this, but as an engineer let me skip to my last, 
so ask a question of this. If when we get to steps 4 and 5, 
because I have designed a lot of bridges, a lot of highways, 
culverts, I don't know how this is functioning yet, so is there 
something I should be working in in my old company in 
engineering that starts to get ready so the cars when we are at 
steps 4 and 5 there is something, is there a wire in the road, 
is there something along the guardrail, or is this something 
merely sensing it? Is this all GPS driven?
    I need to have a lot more information before we get 
anywhere close to that. Because if we are designing all these 
roads, why aren't we taking those things into consideration now 
especially with this infrastructure bill that it is going to 
have? So with that can you tell me what should we be doing in 
our highways to be ready for steps 4 and 5?
    Mr. Klei. In terms of the highways themselves we have to 
adapt to the highways, we can't expect the highways to adapt to 
these systems. That is why real world testing around the world 
has to happen.
    Mr. McKinley. So in that case, Mr. Klei, is it GPS driven 
or is it sensing the side of the highway?
    Mr. Klei. It is both. It is GPS, it is sensing.
    Mr. McKinley. It goes through a tunnel, and in West 
Virginia, where we have almost 50 percent of the State does not 
have service, I lose my signal constantly and no one knows 
where we are. And I don't know what happens at that point, so 
you are going to have to rely on a lot better control if you 
are going to use GPS. So if it is going to be sensing how do we 
do that?
    Mr. Klei. Obviously, the sensory development is a key part 
of that. But it is not just sensing it is also GPS. It is also 
vehicle-to-vehicle, vehicle-to-infrastructure, DSRC, all of 
that coming together will unable that Level 4 and Level 5.
    Mr. McKinley. Thank you very much, I have run out of my 
time. But I want some engineering answers on this, not the 90 
percent savings of accidents, because I think it is BS. It is 
not going to happen, just like we have had the debates here 
over my 7 years in Congress that, if we stop using coal, we 
would eliminate 80 percent of the asthma attacks in this 
country. We know that is false. So I don't want to use a 
technique or a topic that says we are going to save 90 percent 
of accidents if we adopt this, I want to have more facts. The 
engineer in me says I need more facts. So thank you, and I 
yield back.
    Mr. Latta. Thank you very much. The gentleman yields back 
and the gentleman from Texas is now recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, for both you and our 
ranking member, Ms. Schakowsky, for having the hearing today. 
While the technology behind autonomous vehicles continues to 
evolve at a rapid pace it is important that industry and 
Congress continue to examine safety standards to ensure 
consumer safety. Not all the safety innovations are willingly 
accepted by the public with the history of airbags and 
seatbelts has shown. Continued open discussion on these new 
technologies are essential moving forward so that consumers can 
be familiar with both benefits and the limits of autonomous 
features. Frankly, my wife is probably the most supporter of me 
not being in an autonomous vehicle when I am driving. She 
complains all the time about my driving.
    Mr. Zuby, in your testimony you state that your research 
has shown that the driver acceptance of technology varies. Can 
you tell us more about the varying level of acceptance of new 
technology and what can be done to increase the public's 
acceptance?
    Mr. Zuby. Yes. For one of the things that we found for lane 
departure warning systems, the mode of the warning made a big 
difference in whether or not the drivers accepted them. When we 
interview drivers what we find is they complain about audible 
warnings being annoying. Another important aspect of lane 
departure warning and lane maintenance is that the systems 
respond to truly dangerous situations and not be perceived by 
the driver as simply being a nanny about use of the turn 
signal.
    So I think the technology needs to go a ways beyond where 
it is today in order to sort out what are the real dangerous 
situations that we need to inform the driver about versus those 
things that might be dangerous, but a lot of drivers aren't 
going to perceive them as such.
    Mr. Green. OK. At this point, is it known why one warning 
system is so effective and another ineffective?
    Mr. Zuby. One of the issues is if the warning system can be 
heard by other people in the vehicle drivers tend not to like 
it. So the vibrating steering wheels, the vibrating seats tend 
to have higher levels of acceptance than audible warnings 
themselves.
    Mr. Green. Thank you. How can we better study the 
effectiveness of these safety claims to ensure technology is 
living up to its promise?
    Mr. Zuby. It is super important I think that we work out 
ways to make sure that data about which cars have which systems 
and how the systems are working is available to independent 
researchers. Obviously, the companies who are developing the 
systems are going to want to make claims about their high 
levels of effectiveness, but I think people in Government and 
independent evaluators need to be able to verify those claims.
    Mr. Green. I would like to ask this question of the entire 
panel. Would enhanced Government regulation on the collection 
of the crash data with specific regard to what autonomous 
technologies were in each vehicle improve both public safety 
and efficiency, the AV technology? I will start with Mr. Klei.
    Mr. Klei. Yes. Certainly when you look at things like the 
Auto ISAC, which has been developed as an industry coalition to 
really share data on cybersecurity, it is a good example where 
data sharing can really benefit. We think there is an 
opportunity as well to do something similar for some of the 
crash data and some of the activity around autonomous, 
automated driving vehicles. We think that the sharing is very 
powerful, but it needs to be the edge cases and it needs to be 
things that can help all of us develop and deploy these 
technologies.
    Mr. Green. Mr. Gouse.
    Mr. Gouse. In our committees, sir, there is quite a bit of 
sharing going on of technical information that is not 
proprietary to build the standards to design test 
specifications, test devices, and what not to build good 
product, so there is a quite a bit ongoing already at that 
level.
    Mr. Green. OK. Mr. Zuby.
    Mr. Zuby. Definitely, I think regulations prescribing what 
kind of data needs to be saved and under what kind of 
circumstances and with whom that data can be shared will help 
all of us achieve a greater level of comfort that the 
technology is being developed in a safe way.
    Mr. Green. Dr. Stepper.
    Dr. Stepper. Definitely a yes, Congressman. Bosch has been 
working very adequately to actually get NHTSA more resources 
for data for crash reconstruction. Why, because we have used 
NHTSA's NASS database for our own research in understanding how 
many percent of collisions with injuries and fatalities with 
rear-end crashes, how many drivers failed to, for example, even 
after they received the warning to even apply the brakes in the 
first place. So it is very valuable data for us for our 
development purposes.
    Mr. Green. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Latta. Thank you. The gentleman yields back, and the 
Chair now recognizes the gentleman from Florida for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
Dr. Stepper, some driver assistance systems on the market use 
audible tones, steering wheel vibrations, and flashing lights 
to alert the drivers to impending hazards. We are also facing 
high levels of driver distraction as you know. As Bosch works 
to develop these technologies how are you working with 
automakers to ensure that these technologies aren't pulling 
drivers' attention away from the task of driving and causing 
more distraction?
    Dr. Stepper. Thank you, Congressman, for the question.
    Mr. Bilirakis. Sure.
    Dr. Stepper. We work very intensively with our OEM partners 
on the human factors element. For example, evaluating what is a 
really effective and efficient means of alerting the driver of 
getting the attention from the driver back? Is it audible, is 
it visual, is it maybe haptic?
    As Mr. Zuby has answered before what we have found is that 
haptic feedback is actually very, very efficient when it is 
related to a specific action that is wanted. For example, if 
there is a hazard approaching from the rear left, if your seat 
vibrates on the left side of the driver's seat there is a 
haptic feedback that alerts you that something is happening to 
the left of the vehicle. Or if it is intended that you are, for 
example, departing your road lane, the vibration of the 
steering wheel is directly related to something that is going 
on with the steering system that the driver should pay 
attention to.
    We have formed our own group to work on human factors to 
specifically look at the human-machine in action and we work 
very intensively not only with our OEM customers but also with 
academia on this topic.
    Mr. Bilirakis. Mr. Klei, do you want to comment on that as 
well?
    Mr. Klei. Yes, I think similar to the Bosch development we 
also have a very significant investment in the human-machine 
interface technologies. We have been one of the leaders in 
displays, in clusters, and in warning systems for vehicles for 
many, many years. We think that is an important part of 
bringing these technologies to market safely.
    Clearly, when it comes to the audible versus haptic, we 
have done a lot of research as well. We actually have driver 
monitoring cameras that we are looking where the driver is 
seeing, or looking, where the driving task should be. And we 
sometimes use LED lights or other ways to try and bring the 
driver's attention back to the driving task. That is a big 
question.
    As you talk about Level 3 technologies that is the biggest 
question and the biggest area of development is how do you get 
the driver disengaged and then re-engaged fast enough to resume 
the driving task. And I think that is a challenge for the 
industry. That is why you see some developing from Level 2 to 
Level 4, some are going to go through Level 3. But that is 
probably one of the biggest challenges and we are investing 
heavily in this area.
    Mr. Bilirakis. OK. As a follow-up, are consumers able to 
manually turn off these alerts or warnings or customize them to 
their individual preferences?
    Mr. Klei. So that is really a question for the OEM to 
determine what they would like to do. And it happened as well 
with ABS and electronic stability control and the various 
traction control systems, the OEMs for many years could 
determine which could be turned on and off. So it is something 
that some allow, some don't. We believe that ultimately when it 
is proven that the safety technologies are really going to save 
lives that it shouldn't be turned off. It should be developed 
over time to be very easy to understand, very easy to use, and 
will ultimately save lives.
    Mr. Bilirakis. OK. I have a question with regard to 
actually a follow-up on the gentleman from West Virginia. I 
mean, we want to help a lot of the elderly, maybe physically 
disabled people get around. We don't have in my area, in the 
Tampa Bay area we really don't have a mass transit system, so 
this could be extremely beneficial to people getting to 
doctors' appointments, what have you, these automated cars.
    But you anticipate them having a standard driver's license; 
is that correct? I mean they have to qualify for this. For 
example, if you have a visual disability, if you are visually 
impaired and you don't qualify. I am visually impaired but I 
qualify at this particular time. I have a standard driver's 
license. I don't drive at night, but 5 years from now, who 
knows? Will I be able to drive one of these cars even though I 
am visually impaired? That is just an example there. Can I hear 
from one of you? What do you anticipate?
    Mr. Klei. Certainly we believe like we have talked a lot 
about the improvements in mobility for disabled and then 
certainly we think these technologies will offer significant 
improvements here. But it takes time and it takes really more, 
the systems that are developed with that in mind. And that is 
why we are working hard as a company with our OEM partners to 
make sure that these systems are developed with all 
considerations in mind. It is not just for the driver that has, 
you know, zero disabilities. It is to provide mobility for 
everyone. And we think there is a clear promise and they are 
being developed with this in mind.
    Mr. Bilirakis. Anyone else?
    Mr. Gouse. May I, please. We have been working with AAMVA, 
the American Association of Motor Vehicles Administrators, on 
that exact topic for both cars and trucks. And a simple example 
would be some States require that parallel parking is required 
to get your initial driver's license, but in some vehicles the 
vehicle itself can parallel park without the assistance, with 
the assistance----
    Mr. Bilirakis. If you could put the mike a little closer.
    Mr. Gouse. So we have been working with them trying to 
define what features are in place or are possibly in place in 
the future and they can design their driving tests and their 
ratings or perhaps certification levels like a commercial 
driving license has or something that says you can operate a 
Level 3 vehicle with these features, but you can't do a 
completely manual one. You can't drive a manual transmission 
anymore. So it is a complicated question, but it is being 
worked on.
    Mr. Bilirakis. And there will be a State issue, obviously, 
as far as that is concerned. OK, well, that is important. I 
mean, we have got to know that ,because we want to help out our 
constituents. But again, you know, if you have a standard 
driver's license you qualify. And the gentleman asked about 
someone that is intellectually impaired. You know, would that 
person qualify? More than likely they couldn't get a license. 
So anyway that is something we have to resolve, so I appreciate 
that. I have one more question if I have time. I don't have 
time.
    Mr. Latta. Yes. If you would like to submit it in writing 
that would be great.
    Mr. Bilirakis. Yes, I will submit it. Thank you very much. 
I yield back. Thank you.
    Mr. Latta. Thank you very much. The gentleman yields back, 
and the Chair now recognizes the gentlelady from New York for 5 
minutes.
    Ms. Clarke. Thank you, Mr. Chairman, and I thank our 
ranking member. I thank our expert panelists for a very 
important and stimulating examination of autonomous cars.
    Some experts have raised particular concerns regarding 
Level 3 automation and you have discussed it here today where a 
vehicle can drive itself but the driver must be ready to take 
over at a moment's notice. There is some evidence that Level 3 
may lead to an increase in traffic collisions. During recent 
test drives, Ford reportedly noticed that even their engineers 
trained to monitor autonomous vehicles had trouble staying 
alert at the wheel while the car was driving. Volvo's 
autonomous vehicle program is skipping Level 3 altogether and 
planning to go straight from Level 2 to Level 4.
    Mr. Zuby and Mr. Gouse, do you agree that complications of 
Level 3 automation are an example of why it is important to 
monitor autonomous technology to make sure that it is actually 
making driving safer?
    Mr. Zuby. Yes. Thank you for the question. Absolutely, I 
think the important thing will be to be able to monitor these 
developments as they are put out into the fleet. There is a 
long history of human factors research that says things like 
Level 3 are potential problems for human monitors, and I think 
that is why you find some automakers and some technology 
developers deciding that they aren't going to mess around with 
Level 3.
    I am not expert enough to know that Level 3 is impossible 
to do successfully, but definitely there is a concern that if 
the car is too highly capable at the dynamic driving task that 
the driver will discontinue his monitoring activities and not 
be able to resume control when it is necessary because the 
system is no longer capable handling a situation.
    Mr. Gouse. I would just second what David said, but I would 
like to caveat with, bear in mind that people working on this--
I am just awed when I go to committee meetings and listen in at 
the experts, the level of knowledge that is behind all this and 
the amount of consideration that is going on for all the 
aspects. Whether it be taking over control immediately or 
changes in weather conditions or road issues or anything at all 
these levels, it is very impressive the level of expertise and 
the care that is going into this.
    Ms. Clarke. The only factor that I guess is challenging to 
sort of pin down is human error, right?
    Mr. Gouse. Well, there are other challenges too, just like 
in our normal driving that we have unexpected issues that 
arise. The deer jumps out that you never saw before and how do 
you react to that? Or there is some sort of a failure in the 
vehicle or in the infrastructure that is unanticipated and how 
do you react to that? Or someone else who has not got 
automation or not got assistance and makes a grave error and 
how do you react to that?
    Ms. Clarke. But the reaction is the human being, right, not 
necessarily the vehicle? Or is it that the vehicle would be 
programmed to react to the jumping deer or the change in 
weather conditions?
    Mr. Gouse. Well, that goes back to the level of automation, 
whose job it is, who is it assigned and----
    Ms. Clarke. So Level 3 then becomes the challenge in terms 
of what the standard would be for automation versus human 
participation.
    Mr. Gouse. The expectations between Level 2 and 3, it is a 
big step.
    Ms. Clarke. OK. As we have heard, semi-autonomous features 
can have significant safety benefits but they may also be 
confusing, especially to drivers who are unfamiliar with the 
technology or fail to use it correctly. Consumer education will 
be essential to ensuring that the full advantages of these 
technologies are realized.
    Mr. Zuby, why is it so important that drivers understand 
that limits of semi-autonomous features and are aware of what 
exactly their cars can and cannot do?
    Mr. Zuby. Yes, for exactly the issues that we have been 
discussing about Level 3. I mean it will be important for 
drivers to understand how close attention they need to pay to 
the driving situation in order to be ready to take over and 
wonder what situations the system is likely to hand control 
back to them.
    But we would say that I think it is important to try to 
figure out how to design these things so that the limitations 
and the way they work is as intuitive as possible because I 
don't think we can rely on people to spend extra time to learn 
how to drive their cars. I mean how many people in this room 
have read their owner's manual from front to start? There is a 
lot of really important information in there, but I for one 
have not read the owner's manual from start to finish for any 
of the vehicles I have ever owned.
    Ms. Clarke. Very well. Mr. Chairman, I yield back.
    Mr. Costello [presiding]. Mrs. Walters.
    Mrs. Walters. Thank you, Mr. Chair.
    Mr. Gouse, we know that many States and localities have 
developed legislation aimed at regulating self-driving cars. 
Can you go into further detail on the State localities 
implementing SAE's level of driving automation into their laws?
    Mr. Gouse. I am most familiar as a staff person with 
Pennsylvania and Michigan and California. But there are, as 
Jeff said earlier, there are two or three dozen States, and at 
each State or Commonwealth there is an upper chamber and a 
lower chamber and also there may be a regulatory agency, or two 
of them that are working in concert or in parallel paths. So 
there are quite a few going on.
    And our members who are active are picking up things. I 
know New Jersey is talking about it. I heard that from a member 
yesterday. North Dakota is a State, I believe. So it is not our 
main business as SAE to monitor State activities, but we want 
them to adopt the SAE language so there is consistency across 
all the States and territories.
    Mrs. Walters. Yes. I think that is going to be an issue. 
The consistency is going to be obviously very, very important. 
And then the same question for you again is a number of groups 
have developed classification systems to define automated 
driving systems, and can you discuss why SAE determined the 
J3016 standard to be the most optimal way of defining the 
different automated driving systems?
    Mr. Gouse. I would just like to say probably that the 
committee leadership and members worked very hard on this over 
quite a bit of time with a tremendous amount of input from 
various different stakeholders. And it is not just a committee 
of technology developers, there are policy folks in there, 
NHTSA was part of it, motor carriers, Federal Motor Carriers 
was part of it.
    So it was an ongoing process. It was in fact adopted 
internationally before NHTSA did even at the Amsterdam 
convention in April of '16, I believe. So it is becoming a 
global standard and it is being validated that way across the 
globe and in the States as being the preferred choice. It is 
also a living document. It has been revised already once since 
it was issued. In fact, the name was even changed a little bit 
to clarify it. So it will go through revisions and additional 
references to discuss some of the issues that were brought up 
here in questions to add to it.
    Mrs. Walters. OK, all right. Thank you very much, and I 
yield back the balance of my time.
    Mr. Costello. Mr. Cardenas, you are now recognized for 5 
minutes.
    Mr. Cardenas. Thank you very much, Mr. Chairman. Something 
just occurred to me. Are we likely going to see in the near 
future--I grew up learning how to drive on a stick shift. A lot 
of today most drivers in America probably don't know how to use 
a manual or a stick shift vehicle, these automatic gear 
shifting vehicles. Are we looking at possibly in the near 
future where people get in their car and they push a button, 
today I am going to use automation 1, 2, or 3 Level, and maybe 
that is the new gear shifting or shifting of the vehicle that 
we are going to be driving in the future? Does that make any 
sense, or is that probably likely what we are going to be 
looking at?
    Mr. Klei. I think one of the things that we look at when we 
are looking into development is you never take the fun away 
from driving your car. We still like the ability for people to 
drive their cars when they want to drive their cars. But there 
is many driving tasks, there is many opportunities for disabled 
to provide mobility, and that is where we think the big benefit 
will be. We never want to take the fun away though.
    So it could be someone gets in a car and says yes, I want 
to go from point A to point B in an automated way or it could 
be that I want to drive myself on the windy country roads. So I 
think there is going to be some opportunities there over time 
for people to still have fun, but in certain circumstances 
still get the mobility that they need and they want and to be 
able to do other things in the car.
    Mr. Cardenas. Well, speaking of taking the fun away 
driving, I can envision if we are going to be appropriate as a 
Government, and maybe in the future what we have is a speed 
limit technology where if you are going to be driving an 
automated vehicle then the speed limit is 35 miles an hour. 
Your car is not going to be allowed to go over 35 miles an hour 
on that piece of the road.
    Mr. Klei. Yes. I mean, I think these are things that we 
need to consider, but quite frankly we believe that if you do 
that you could actually introduce more challenges because 
everyone will try and go around the car. You want the car to 
flow naturally with traffic with other automated vehicles as 
well as nonautomated vehicles, so you want it to be very 
natural, and through testing and development that is what we 
are developing for. So to limit a car and limit the mobility 
and limit the functionality is going to limit the testing and 
deployment of such technologies and potentially lifesaving 
benefits.
    Mr. Cardenas. For those of you who are on the panel from 
private industry, I mean how do you feel about your 
relationship right now with Federal departments when it comes 
to reporting and expectations of, you know, obviously 
nonproprietary progress and letting them know what you are 
looking for as long as timing of introducing products, et 
cetera?
    Mr. Klei. I think, Congressman, it is a great question. It 
is one that through the Federal Automated Vehicles Policy that 
was rolled out last September from NHTSA it is a great start to 
bringing the collaboration together between industry and 
Government. And we think it is a big step forward but there is 
more work to do.
    In that policy it requires significant reporting between 
the industry and NHTSA and that reporting needs to be better 
defined, it needs to be more expedited, and the exemption rules 
that we are all looking for especially in the development side 
need to be improved. And so we are working closely with that 
agency, with NHTSA to try and improve that and make sure that 
when it is officially rolled out and deployed that really it 
is, in fact, usable and it is going to drive this technology 
forward and potentially save lives when deployed.
    Mr. Cardenas. What country right now seems to be more, I 
don't want to use the word advanced, but more ready and willing 
to allow their constituents to drive the highest class of 
automated vehicle right now?
    Mr. Klei. Every country has certain limitations and certain 
regulations and there is no one country that is easy. Every 
country has different----
    Mr. Cardenas. I mean, is there a particular country right 
now that--I am thinking of Germany. I am wondering if they are 
allowing a little bit more than we are so far.
    Mr. Klei. I don't know that there is one country that says 
it is easy to do. Every country has certain limitations and for 
good reason.
    Mr. Cardenas. Anybody know what is going on around the 
world?
    Dr. Stepper. The same as Mr. Klei said, from my side 
sometimes it is not even regulated by a specific country law. 
You know, also in Germany, you mentioned Germany as an example, 
the different States have different laws and different 
regulations and the regards of allowing or not allowing 
different levels of automation. There may be some States that 
are really fostering the rollout so that companies like Bosch 
can go on public roads and test and validate the systems which 
is very helpful for our development to be allowed to do that.
    Mr. Cardenas. OK. Thank you, Mr. Chairman.
    Mr. Costello. Mr. Mullin, you are now recognized for 5 
minutes.
    Mr. Mullin. Thank you, Mr. Chairman.
    Doctor, is it Stepper?
    Dr. Stepper. Yes.
    Mr. Mullin. Thank you for being here. You talk about the 
technology and moving forward with the technology of going out 
and testing the vehicles. But can you explain a little bit more 
how that works with the technology of the vehicle versus the 
GPS----
    Dr. Stepper. Yes.
    Mr. Mullin [continuing]. That the vehicle I am assuming has 
to be programmed into a GPS and it has got to take you from 
point A to point B; is that correct?
    Dr. Stepper. So it depends on the level of automation, 
Congressman. So if you would go all the way to a Level 5 
automated driving, for example, which really takes the driver 
out of the loop and there is no longer a driver required to 
operate the machine that it would exactly the scenario that you 
would dial in a particular destination and the vehicle will 
take you there, for example, door to door.
    Mr. Mullin. Well, what is Level 1?
    Dr. Stepper. In Level 1, this is what we call today's 
driver assistance systems where there is----
    Mr. Mullin. Where your seat vibrates and it tells you and 
does all that stuff?
    Dr. Stepper. For example, there would be a warning that 
there is an impending front-to-rear-end collision or there is a 
lane departure that is about to happen.
    Mr. Mullin. And 2?
    Dr. Stepper. Two combines the longitudinal and lateral 
control of the vehicle so, for example, we still call it the 
assistance functions. It is functions like a traffic jam assist 
where the vehicle in that particular scenario in a traffic jam 
would automatically take the control for the longitudinal and 
the lateral perspective of the vehicles but the driver is still 
fully responsible and fully in the loop, whereas in Level 3, 
for example, you take that as one example to a traffic jam 
pilot where you can take your hands and your feet off for a 
well-defined scenario.
    You need to be on a Class 1 road. On a traffic jam pilot, 
for example, you need to have preceding traffic, and then for 
this stop and go traffic the machine would take over the 
control of the vehicle until it handles it back to the human 
being.
    Mr. Mullin. And 5 is what we started the conversation with. 
Do we see the advancement of the vehicles catching up or going 
to surpass the GPS? Because everybody uses their road maps and 
their GPSs on their phones and I am sure I am not the only one 
that it takes me to the wrong place all the time.
    Dr. Stepper. Yes, yes.
    Mr. Mullin. So they would have to work simultaneously, 
wouldn't they?
    Dr. Stepper. Yes, so they actually, Congressman, there is 
additional technology that is required. So what we know today 
as GPS, also standard definition maps, for Level 4, Level 5 
automated driving to a certain extent even for Level 3, we have 
the need for high resolution, highly dynamic maps that really 
exceed the requirements that we see from the map requirements 
from today's navigation system. And that is actually coupled in 
a process called data fusion with onboard sensing via radio 
cameras, your radars, your other sensing technology you may 
have on board on the vehicle that will recognize certain 
landmarks like a fire hydrant, like a bridge, like a certain 
exit, and it combines the GPS information----
    Mr. Mullin. That is more of an eyesight on it.
    Dr. Stepper. As well as nonvisible electromagnetic base 
like radar, for example, or LiDAR technology which uses laser 
light.
    Mr. Mullin. So would this be one entity or would each 
company be responsible for their own technology for the GPS to 
which their vehicle is going to be operating by?
    Dr. Stepper. It really comes together at the end at the 
vehicle manufacturer. There may be different suppliers for 
certain sensing technologies or GPS technology. What really is 
the trick to have the competency in bringing all this data 
together in this data fusion process and derive driving policy 
decisions out of that.
    Mr. Mullin. What I am talking about is somebody working on 
this end of the GPS as you guys are working up with the 
vehicle, are they going to meet? Or when the technology for the 
vehicle gets to that point, then we start diving into the 
precise GPS?
    Dr. Stepper. Yes, so that is already available today in a 
system that is called differential GPS systems that increases 
the resolution. Most companies, actually, out there testing and 
validating automated driving today use differential GPS system 
to get them to the resolution that they need, which in essence 
is a centimeter resolution as opposed to a couple meters that 
we see today. So that technology is already available today. 
The challenge in the development is going to be to bring the 
prices down and the costs down of such an advanced GPS system 
for use in every vehicle.
    Mr. Mullin. Is there one company that is leading that?
    Dr. Stepper. There are several companies that are working 
on that exact topic. There is not one company that stands out.
    Mr. Mullin. Do you have one particular one that you are 
working with?
    Dr. Stepper. We work really with all of them at the moment. 
There is no particular one that I can point out at the moment, 
Congressman.
    Mr. Mullin. All right, thank you. Thank you for your time. 
Mr. Chairman, I yield back.
    Mr. Costello. Thank you. I will now recognize myself for 5 
minutes and ask a question to all panelists, two-part question: 
One, how is the development and testing of these systems 
different from the development and testing of fully self-
driving technologies; and second, how much can be learned from 
the development and testing of advanced driver assistance 
systems?
    Mr. Klei. So first, what is different, I don't really think 
there is so much difference in the way we develop and we test 
technologies, everything from ABS through electronic stability 
control and all the way to fully automated driving. It is a 
very rigorous, long testing process. It starts with the 
technology itself. It starts with bench testing, then in 
contained track environments, and we evolve all the way to, 
ultimately, the real road and real world testing.
    So the process is very similar. Obviously, the conditions 
by which we test are going to be different depending on the 
technology. But in terms of the rigorous, you know, Six Sigma, 
continuous improvement mindset that we have to make sure the 
products are safe is no different regardless of what the 
technology is. The challenges are bigger the higher levels of 
automation you go to, but the testing process itself is always 
very much the same, safety first.
    When it comes to the implementation of these and across the 
various product portfolio again everyone is going to be 
different, and ultimately it is the OEM that decides when it is 
safe to deploy in the vehicle. We work with OEM customers and 
they ultimately are the ones that certify for FMVSS.
    Mr. Gouse. I would like to just briefly add a couple 
things. Prior to the beginning of testing, there are some tools 
you put in place, what are called a design failure mode effects 
analysis and failure mode effects analysis, where you look at 
all different ways a system might fail and then you design a 
test procedure to encompass that and then you look at when 
something fails, whether it is part of the system or something 
external or you are testing an automated vehicle, but the 
engine conks out or something or you get a flat tire, you have 
to build all of that into your test procedures. And so you have 
got a complete, very comprehensive, and carefully designed 
program to execute as part of the process.
    Mr. Zuby. Yes. I would agree with Mr. Klei and Mr. Gouse 
that the process is similar. But I think one of the things that 
we need to keep in mind that as we deploy increasingly evolving 
technologies we do need to watch them very carefully and see 
how they perform in the real world. And when they fail to 
perform try to understand whether or not they are failing to 
perform because of a deficiency in the technology, a deficiency 
in the logic behind the technology, or because the circumstance 
in which they failed is just outside the design domain of that 
particular technology.
    Again, consequently, I think information about what is 
happening in the real world as these technologies deploy is 
going to be vitally important to making sure that this stuff is 
developed in a safe way.
    Dr. Stepper. And if I just may add a few points. Number one 
is what we didn't have available in the past when we started 
developing ABS or ESP, for example stability control, was an 
international standard specifically designed for the different 
safety assessments and different safety levels. And that 
standard is called ISO 26262 which was specifically developed 
for use in the automotive space to define different safety 
levels and also define how to get to and what you have to meet 
in order to get to the different levels of this safety.
    Number two, what we didn't have available when we are 
deploying ABS or electronic stability control or early in 
driver assistance is the vehicle being connected to the rest of 
the world, being connected to servers. If we would just proceed 
with conventional validation as we have in all these decades it 
would really be cost and time prohibitive. We would; literally, 
in order to fully validate a fully automated vehicle we would 
have to drive a distance that equals the average distance 
between the sun and the earth which is not feasible from a cost 
and time perspective.
    So what we continue to deploy is the advantages of being 
connected and having vehicles deployed in the field that 
collect for us very valuable data of real world traffic 
situations that we then can take back to analyze and develop 
and adjust our software, for example, accordingly.
    Mr. Costello. Thank you. Seeing there are no further 
members seeking to ask questions for the first panel, I would 
like to thank all of our witnesses again for being here today.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent: 
a report from MEMA; Advocates for Highway and Auto Safety's 
FAVP comments in a March 27th letter to Chairman Latta and Ms. 
Schakowsky; a statement from the National Safety Council; a 
statement from Global Automakers; a letter from the U.S. 
Chamber of Commerce, Technology; a statement from American Car 
Rental Association; a statement from Mobileye; a statement from 
EPIC; and a letter from Honda.
    [The information appears at the conclusion of the hearing 
and at  http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105790.]
    Mr. Costello. In pursuant to committee rules, I remind 
members they have 10 business days to submit additional 
questions for the record and I ask that witnesses submit their 
response within 10 business days upon receipt of the questions. 
Without objection, the subcommittee is adjourned.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional information from AHAS is available at  http://
docs.house.gov/meetings/IF/IF17/20170328/105790/HHRG-115-IF17-
20170328-SD004.pdf.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
